<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                              

                         [H.A.S.C. No. 116-35]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

             DEPARTMENT OF THE ARMY MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                              MAY 1, 2019



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-511                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
KATIE HILL, California
JARED F. GOLDEN, Maine
               Carla Zeppieri, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1

                               WITNESSES

Jette, Hon. Bruce D., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, Department of the Army..     5
Ludwigson, Jon R., Acting Director, Contracting and National 
  Security Acquisitions, Government Accountability Office........     8
Murray, GEN John M., USA, Commander, Army Futures Command, 
  Department of the Army.........................................     6
Pasquarette, LTG James F., USA, Deputy Chief of Staff, Army 
  (Programs), Department of the Army.............................     7

                                APPENDIX

Prepared Statements:

    Jette, Hon. Bruce D., joint with GEN John M. Murray and LTG 
      James F. Pasquarette.......................................    44
    Ludwigson, Jon R.............................................    56
    Norcross, Hon. Donald........................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Cook.....................................................    83
    Mr. Gallego..................................................    85
    Mrs. Hartzler................................................    82
    Mr. Norcross.................................................    81
    Mr. Turner...................................................    85
    
.  
   
             DEPARTMENT OF THE ARMY MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                            Washington, DC, Wednesday, May 1, 2019.
    The subcommittee met, pursuant to call, at 2:37 p.m., in 
room 2118, Rayburn House Office Building, Hon. Donald Norcross 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE 
  FROM NEW JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Norcross. The hearing will come to order. The Tactical 
Air and Land Forces Subcommittee meets today to review the 
Department of the Army's modernization programs for the fiscal 
2020 budget request.
    The Army has made significant changes, and that is an 
understatement, and some very tough choices with regards to the 
2020 request to fund future capabilities without asking for an 
increase to their budget top line.
    Our subcommittee intends to examine the rationale behind 
each choice with the senior Army leaders that we have with us 
today.
    I would like to welcome our distinguished panel of 
witnesses.
    Dr. Bruce Jette, Assistant Secretary of the Army for 
Acquisition and Logistics and Technology.
    General John Murray, Commanding General, Army Futures 
Command.
    And I would like to thank both of you for meeting us up at 
Picatinny and spending the day with us, very informative and 
very helpful.
    Also joining us is Lieutenant General James Pasquarette, 
Deputy Chief of Staff of the Army, G-8, and Mr. Jon Ludwigson, 
Director of Contracts and National Security Acquisitions, 
Government Accountability Office [GAO].
    Thank you for joining us today.
    I know we are all looking forward to your testimony and 
this is something that has been very much on top of everybody's 
mind because of the scrubbing that the Army has done over the 
course of the last year.
    The subcommittee will review a broad portfolio of Army 
ground, aviation, ammunition, and air and missile defense, and 
soldier individual equipment programs.
    The Army's fiscal 2020 modernization request, research and 
development acquisition programs, totals $34 billion, 
essentially in line with last year's enacted amount. Though the 
Army's modernization top line did not change, the programs 
funded under these accounts certainly did. The subcommittee 
wants to learn about these changes, the reasoning behind it, 
and the associated risk that was taken or improved.
    To fund the future modernization priorities, the Army 
leadership conducted a yearlong examination of all research and 
development procurement programs, weighing the cost and 
benefits of each against the Army's current needs and with the 
anticipated future threats in support of the new National 
Defense Strategy.
    Some 180 programs were deemed less relevant, that is 
certainly a relative term, to our strategy and were not as 
capable as a replacement, therefore not worth the expense. They 
were cut from the fiscal 2020 request.
    One of the subcommittee goals today is to better understand 
the context, the analysis behind those decisions.
    One significant program reduction involves an upgrade to 
the CH-47F Chinook helicopter. Despite having invested 
significant funds to develop the Block 2 aircraft with greater 
lift, increased range capabilities, the Army deferred the 
program indefinitely, using the assumption that the aviation 
community would absorb the risk to the heavy-lift mission, and 
the industrial base will somehow weather this loss.
    The subcommittee expects to hear more about the Army--how 
you reached these conclusions and how the service intends to 
manage this risk going forward.
    Army modernization has had a rocky road. The Army leaders 
with us today are familiar with that and the history and are 
committed to a new way of planning and managing modernization. 
Most important, the Army leaders have [reorganized] for the 
future, standing up the Army Futures Command, General Murray's 
new command, and creating of the cross-functional teams to 
identify and develop solutions to serve the top six 
modernization priorities.
    They are long-range precision fire; next-generation combat 
vehicles; future vertical lift; Army network; air and missile 
defense; and soldier legality--lethality, excuse me.
    The committee expects to hear how the fiscal 2020 request 
will address these modernization priorities and align 
acquisition with the National Defense Strategy. We also want to 
know what will be different this time, and we have had this 
conversation so many times we have gone through this and 
somehow expecting that we change. Many are describing that this 
feels different, and certainly we want to make sure that, A, it 
is sustainable and it is working the way that it is designed.
    What new processes or internal oversight will ensure that 
the Army gets its money's worth in this wide-reaching 
modernization endeavor? We are interested in the distribution 
of responsibility, the authority, as well as the relationship 
of Dr. Jette's organization, ASA(ALT) [Assistant Secretary of 
the Army (Acquisition, Logistics and Technology)] and the 
Army's Future Command and the Army staff, how will these three 
organizations work together and prioritize and come out with 
one correct decision.
    Given congressional and DOD [Department of Defense] 
interest in improved acquisition, the Army has enthusiastically 
embraced rapid prototyping authorities granted by Congress to 
speed innovation and shorten development cycles for those key 
technologies.
    While the subcommittee supports the use of the so-called 
transfer authorities and other transaction authority, we also 
want to be sure that these rapid prototyping approaches are 
used in the spirit of good acquisition processes and practices 
that yield real measurable results.
    Buying too many of the same design prototype while in the 
test and evaluation phase might not be the best use of 
taxpayers' money. The committee will conduct oversight in these 
areas to assure that prototype-related funding is programmed 
and spent in a reasonable manner.
    And of course GAO has extensive knowledge of the Army 
acquisition, past and present, and understands those 
challenges.
    The subcommittee is interested in the GAO assessment of the 
Army Futures Command which is in your packet. And it is all 
driving the innovation and the relationship to the rest of the 
Army acquisition community.
    We look forward to your testimony to discuss these topics.
    Before we begin I would like to turn to the ranking member, 
the distinguished lady from Missouri who we had a chance to be 
in her district a couple of weeks ago and looking forward to 
your comments.
    Mrs. Hartzler.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 41.]

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Thank you, Mr. Chairman, and we look forward 
to you coming back, so we can go to Fort Leonard Wood as well 
and see that very important Army installation.
    But thank you so much all for being here and to provide us 
testimony in the Army modernization efforts in the fiscal year 
2020 budget request.
    The National Defense Strategy directs our military to 
prepare for the return of the great power competition with 
strategic near-peer, and I would say equal-peer almost, 
competitors like Russia and China.
    The Secretary of the Army has noted that this budget 
request represents an inflection point for the Army. And in 
order to meet these National Defense Strategy objectives the 
Army needs to rapidly modernize now.
    Overall, it appears that the Army's modernization request 
continues to build on the progress made in the previous two 
budgets in rebuilding readiness and modernization. This is 
important because Army modernization funding declined by well 
over 50 percent from 2008 through 2016 as a result of the 
drawdown from two wars and the imposition of the budget caps by 
the Budget Control Act.
    Most of this impact was seen in the later stages of the R&D 
[research and development] accounts such as prototyping and 
system development stages, which are the precursors to fielding 
new capabilities. So I am pleased that this budget request 
continues to request needed growth in modernization.
    The Army's modernization request includes $12.2 billion in 
research, development, test, and evaluation funding, and $21.8 
billion in procurement which will begin to address the Army's 
identified top six modernization priorities which the chairman 
listed.
    In building this year's budget request, I understand senior 
Army leadership reviewed and scrutinized every program to 
determine which ones supported the National Defense Strategy, 
and which programs could be reduced or cancelled so that 
savings could be reinvested into the Army's ``big six,'' quote, 
priorities.
    Obviously, tough choices had to be made and while we might 
not agree with every decision the Army made, we can commend the 
Army for making these tough decisions in order to prioritize 
limited investment funding for the future fight and effectively 
begin to operationalize the National Defense Strategy.
    I would like our witnesses today to provide additional 
details on this process and help us understand how you are 
managing strategic risk as a result of these decisions, to 
include operationally as well as impacts to the industrial 
base.
    Since we met last year to review the Army's modernization 
request, the Army's Future Command has reached initial 
operational capability, congratulations, and is well underway 
in developing modernization requirements to meet these future 
threats.
    We expect witnesses today to provide an update on how the 
Futures Command has begun to improve the acquisition and 
modernization process.
    To support this effort, I understand the Army has also 
established eight cross-functional teams [CFTs] that align with 
the Army's modernization priorities. These CFTs are pursuing 31 
separate lines of effort with over $8.8 billion total requested 
for these efforts in the budget. I expect our witnesses today 
to provide updates on these efforts.
    Given this focus on next-generation capabilities, I would 
like our witnesses today to discuss how the Army is balancing 
investments and capabilities for the future fight while at the 
same time upgrading legacy platforms for current threats.
    Finally, I want to stress the importance of having a 
defense top line that represents real growth. We cannot afford 
to go backwards. And the level of funding in this budget 
request is the minimum required to continue repairing our 
military.
    So I thank the chairman for organizing this important 
hearing, and I yield back the balance of my time.
    Mr. Norcross. Thank you, Mrs. Hartzler.
    I understand each of the witnesses will provide both the 
[off mic], starting with Dr. Jette, followed by General Murray 
and ended with Lieutenant General Pasquarette. And then Mr. 
Ludwigson will provide a perspective from the GAO that 
everybody is looking forward to.
    And without objection each of the witness prepared 
statements will be included in the record. Hearing none, so 
ordered.
    So Dr. Jette, you can lead off and share with us something 
we have been looking forward to, how the midnight scrub 
reallocated much of what we do. And on our platter there are 
300 requests from fellow members to make those adjustments a 
little bit different. So we have before us quite a challenge 
and we want to make sure we hear the rationale, the risk, and 
where we are going.

 STATEMENT OF HON. BRUCE D. JETTE, ASSISTANT SECRETARY OF THE 
 ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, DEPARTMENT OF 
                            THE ARMY

    Secretary Jette. Chairman Norcross, Ranking Member 
Hartzler, and distinguished members of the Subcommittee on 
Tactical Air and Land Forces, good afternoon.
    Thank you for the opportunity to appear before you today to 
discuss the Army's modernization priorities and the resources 
we have requested for the fiscal year 2020 President's budget.
    Before I begin, on behalf of the Army family I would like 
to extend our deepest sympathies on the passing of 
Congresswoman Ellen Tauscher. She had a very distinguished 
career as a public servant and was a true friend and supporter 
of the Army. We share the sadness of your loss.
    For nearly two decades, the Army has deferred high-
intensity combat capability modernization in order to support 
continuous low- to medium-intensity operations while the global 
security environment has grown more competitive and volatile.
    Army senior leaders identified our budget, organization, 
acquisition, and talent management as central to ensuring 
unquestionable superiority. In all of these, one primary 
objective guided us: Make soldiers and units more capable and 
lethal to deter conflict or win decisively if necessary.
    The fiscal year 2020 budget request before you is the first 
budget in decades to fully fund the modernization priorities. 
Through a series of introspective assessments of existing 
programs as they contribute to our primary objective, we 
eliminated, reduced, or consolidated nearly 200 programs, 
reallocating the funding to more essential modernization 
priorities rather than asking Congress for additional funding.
    The Army leadership recognized the need for fundamental 
change to better employ those resources, a revitalized future 
force modernization enterprise was necessary.
    Last year, the Army made its most significant organization 
restructuring in over 40 years by establishing the Army Futures 
Command. As a result, one commander is driving support for the 
NDS [National Defense Strategy] through concept development, 
experimentation, modeling, simulation, organizational design, 
requirements determination, and material solution validation.
    Through the cross-functional teams, AFC [Army Futures 
Command] remains laser-focused on the six modernization 
priorities. The Office of the Assistant Secretary of the Army 
for Acquisition, Logistics and Technology retains management 
and control over all aspects of material development and 
procurement.
    However, the establishment of AFC affords an opportunity to 
create a more collaborative working environment between the 
CFTs and the program executive offices [PEOs]. Each CFT has a 
PEO. The 30 signature systems of the CFT each have a program 
manager.
    Of greatest value is the collaboration. AFC and the CFT 
participate in deliberation over acquisition strategies. 
Equally the acquisition community contributes to the 
operational requirements through a development process. Yet 
each retain their responsibilities.
    While retaining management control of funding at the 
ASA(ALT) level, Army Science and Technology Funding 6.1 through 
6.3 is managed for execution by AFC, to which the Army Organic 
Technology Base is assigned, Army Research Office, Army 
Research Laboratory, Combat Capabilities and Development 
Directorate Command.
    As the Army Chief Scientist, I am personally involved in 
the technology strategies and planning. Advanced Component 
Development and Prototyping 6.4 dollars remain managed by the 
PEOs and PMs [project managers], but with the objective of 
fulfilling AFC experimentation, modeling and simulation, and 
prototyping, in order to facilitate a more seamless transition 
to programs of record.
    The Army continues to responsibly implement acquisition 
initiatives that Congress authorized such as Section 804 Middle 
Tier Acquisition and other transaction authorities.
    We established an intellectual property policy that 
protects the equities of both the government and private 
industry to encourage inventive and innovative companies to 
work with the Army. We have a draft transition to sustainment 
policy with execution plan, currently under test, to better 
manage resources and are working on a transition to divestiture 
for obsolete equipment.
    Our advanced manufacturing policy will help reduce part 
stockages and time to repair and we believe the size of the 
sustainment tail in general. And with the complexities of the 
emerging battlefield, ASA(ALT) has drafted a revised talent 
management program for acquisition professionals that, 
particularly in the case of officers, stretches back to ROTC 
[Reserve Officers' Training Corps] and West Point.
    Thank you again for this opportunity to discuss the Army's 
modernization priorities and for your strong support of the 
Army's programs. I look forward to your questions.
    [The joint prepared statement of Secretary Jette, General 
Murray, and General Pasquarette can be found in the Appendix on 
page 44.]
    Mr. Norcross. Thank you.
    General Murray.

 STATEMENT OF GEN JOHN M. MURRAY, USA, COMMANDER, ARMY FUTURES 
                COMMAND, DEPARTMENT OF THE ARMY

    General Murray. Thank you, Mr. Chairman.
    Chairman Norcross, Ranking Member Hartzler, distinguished 
members of the Tactical Air and Land Forces Subcommittee, thank 
you for the opportunity to appear before you today and thank 
you for your long-time, steadfast support and demonstrated 
commitment to our soldiers, our civilians, and their families.
    And Ranking Member Hartzler, the United States Army is 
indeed at a strategic inflection point. Both Russia and China 
have begun a very aggressive modernization program for their 
armies.
    Up until this point and really the last couple of years the 
United States Army has not and we are in danger of falling 
behind.
    The Army established Army Futures Command to provide unity 
of effort and to make sure that the Army becomes a continually 
modernizing organization. The key is unified and integrated 
approach to develop and deliver operational concepts, future 
force designs, and material solutions to support those 
concepts.
    The Army Futures Command has postured the Army for the 
future by setting strategic direction, integrating the Future 
Force Modernization Enterprise, aligning resources to Army 
priorities, and maintaining accountability. In doing so, Army 
Futures Command works hand in hand with the Assistant Secretary 
of the Army (Acquisition, Logistics and Technology) Dr. Jette 
and the Army G-8 led by Lieutenant General Jim Pasquarette.
    The Army's new concept, Multi-Domain Operations 2028, is 
the foundation for the Army's modernization plan. This concept 
articulates how the Army as part of the joint force and with 
our allies will compete with and if necessary defeat near-peer 
adversaries as directed in the National Defense Strategy.
    The Army's next modernization strategy will be published 
this summer. It will describe how the Army will continually 
modernize, become a multi-domain capable force by 2028 and a 
multi-domain ready force by 2035.
    As mentioned, Army Futures Command has eight cross-
functional teams that are powerful tools for modernization. 
These teams directly align with the Army's modernization 
priorities, and initiatives that they oversee are the critical 
first steps of the Army modernization.
    Each team is led by a general officer or senior executive 
and directly partnered with both the program manager and the 
program executive officer, and this team brings together all 
the relevant communities to work together from the earliest 
stages of the process, from requirements to science and 
technology, testing and evaluation, costing, resourcing, 
contracting and logistics, so we have the opportunity to get it 
right from the beginning.
    We are already seeing results of these efforts; the new 
enhanced night-vision goggle binocular with a requirements 
document about 12 months ago will be fielded to Army formation 
this fall and deployed to the Republic of Korea.
    Additionally, mobile short-range air defense requirements 
document about 2 years ago is on track for initial fielding in 
fiscal year 2020.
    I am absolutely confident that our Army will have the 
concepts, capabilities, and organizational structures that it 
needs to fulfill our mission on the nation's behalf.
    Thank you again for this opportunity and I look forward to 
your questions. Thank you.
    Mr. Norcross. Thank you.
    General Pasquarette.

  STATEMENT OF LTG JAMES F. PASQUARETTE, USA, DEPUTY CHIEF OF 
         STAFF, ARMY (PROGRAMS), DEPARTMENT OF THE ARMY

    General Pasquarette. Thank you, Mr. Chairman.
    Chairman Norcross, Ranking Member Hartzler, distinguished 
members of this subcommittee, thank you for the opportunity to 
speak about the fiscal year 2020 Army modernization budget.
    You will find no daylight between the National Defense 
Strategy and the areas we are investing in to ensure the U.S. 
Army maintains land force dominance in the future versus near-
peer competitors.
    This year's budget request is driven by the Army strategy 
and if fully funded will enable the Army to meet its 
modernization priority objectives by 2028 in support of the 
NDS.
    In building the fiscal year 2020 budget the Secretary of 
the Army and Chief of Staff recognize that future defense 
budgets would likely remain relatively flat or potentially 
decline, so rather than asking for additional resources, they 
chose to reprioritize resources from within the Army's 
projected top-line to pay for near-term readiness and next-
generation modernization.
    As mentioned, the Army leadership personally reviewed over 
500 programs. Those that did not directly contribute to 
lethality or assessed as ineffective against near-peer threats 
in the envisioned future operational environment became a 
funding source.
    In the end this process and the implementation of 
aggressive reforms and efficiencies resulted in the 
reprioritization of over $30 billion across the fiscal year 
2020 FYDP [Future Years Defense Program] in favor of 
modernization priorities.
    These decisions while not easy were necessary to put the 
Army on an azimuth to maintain land dominance, given the 
acknowledged return of great power competition with Russia and 
China.
    Let me close by saying that the realization of our 
modernization objectives is highly dependent on what is in the 
fiscal year 2020 budget request by the Army. The investments in 
this budget request complement and reinforce what was jump-
started in the fiscal year 2018 and 2019 budgets of which we 
thank Congress for their great support.
    Finally, with continued predictable, adequate, timely, and 
sustained funding, the U.S. Army will continue to be the best 
equipped land force the world has ever known.
    I sincerely appreciate your time today and I look forward 
to your questions. Thank you.
    Mr. Norcross. Thank you.
    Mr. Ludwigson.

STATEMENT OF JON R. LUDWIGSON, ACTING DIRECTOR, CONTRACTING AND 
   NATIONAL SECURITY ACQUISITIONS, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Ludwigson. Chairman Norcross, Ranking Member Hartzler, 
and members of this subcommittee, I am pleased to be here today 
to discuss the Army's modernization.
    I will summarize my written statement which draws upon 
three prior modernization-related reports. My statement today 
will provide observations on three broad topics.
    First, the organizational changes occurring with 
modernization; second, some positive aspects of modernization 
we have seen; and third, some steps the Army should take while 
modernizing.
    Regarding the organizational change. As a part of 
modernization, the Army is substantially restructuring, 
including the creation of the new four-star Army Futures 
Command which seeks to integrate and connect the forward-
looking components of Army. This restructuring also aims to 
improve how requirements are developed, something GAO and 
others have identified as part of the problem with past failed 
modernization efforts.
    Despite these steps, Army modernization remains very much 
in process. While Futures Command has begun operating, it is 
not expected to be fully operational until this summer, and 
efforts aimed at modernizing the Army's capabilities are 
considerable and could take a decade or longer to be realized.
    While modernization is just starting, I would like to 
highlight three positive aspects. First, we have seen a strong 
organizational commitment to modernization across senior levels 
of Army and Futures Command. And the Army has begun to follow 
relevant leading practices for organizational change we have 
identified.
    Also, we see the establishment of cross-functional teams as 
offering the promise of improving modernization efforts. These 
teams are intended to guide progress towards the Army's six 
modernization priorities while pulling in new ideas from 
industry and academia, identifying opportunities to experiment 
and prototype, and identifying opportunities to improve the 
acquisition process.
    These teams bring together stakeholders with diverse 
expertise including requirements, contracting, cost analysis, 
and the potential users of these weapon systems. These teams 
bring together stakeholders earlier than the traditional 
process where stakeholders provided their input sequentially 
and later. These teams have also generally followed relevant 
leading practices we had identified.
    Finally, we see Army taking steps to realign research and 
development investments with its modernization priorities. 
Identifying and maturing technologies to address capability 
needs takes time, and ensuring that these efforts are directed 
at modernization efforts early is important.
    I would like to mention four changes the Army should 
consider as it modernizes. First, the Army and Futures Command 
could do more to broaden the organizational commitment to 
restructuring by more clearly seeking to leverage the strengths 
and experiences of existing organizations, and formalizing 
coordination with organizations who do not directly report to 
Futures Command but are instrumental to the success of the 
modernization enterprise.
    For example, Futures Command had not yet recently--until 
recently finalized details of how it will work with the 
civilian acquisition authority and I think it is still working 
through some of those issues.
    Second, the Army should improve the transparency of its 
near-term modernization efforts as we recommended in 2018 by 
establishing a plan for evaluating how near-term modernization 
investments contribute to its modernization goal, and 
finalizing its estimate of near-term investments and providing 
all of those estimates to Congress.
    Third, the Army should ensure that it has enough key 
personnel to support the work of modernization, as we 
recommended in 2017. At that time, we reported the Army had 
declining levels of acquisition personnel who helped develop 
requirements. With the expected increased pace of 
modernization, the Army should evaluate whether they have 
enough of these key personnel.
    Finally, the Army should commit to using mature 
technologies in new weapons systems as we recommended earlier 
this year. Past failed modernization efforts have left the Army 
with equipment in need of an update. Developing new weapons 
systems using mature technologies would lower the risks 
associated with updating its capabilities compared with its 
past practice of developing these integrated weapon systems 
while maturing the underlying technologies.
    In conclusion, the Army has taken promising early steps to 
address some of the reasons it has struggled with past 
modernization efforts, but it could do more. GAO stands ready 
to help Congress as they oversee these important efforts.
    Chairman Norcross, Ranking Member Hartzler, this concludes 
my statement. I would be happy to answer any questions the 
subcommittee members may have.
    [The prepared statement of Mr. Ludwigson can be found in 
the Appendix on page 56.]
    Mr. Norcross. Thank you. And certainly for the report which 
went to each of the offices dated January 2019, so there are 
some very positive things in there, but there are certainly 
some challenges, still very new and you pointed that out.
    So I am going to start out, I will just go with two general 
questions, the first one more aspirational on how the design 
and the way it was supposed to work, and the way we think it is 
working now.
    Hard scrub over the course of last year, what fits into our 
new priorities?
    So first question is when the programs were reviewed, you 
were measuring against the six priorities that we set forth. 
Risk is assessed across the board. Are you using the same risk 
assessment for each of the programs, or does that risk change 
based on the program as you move forward?
    So General Murray, let us start with you and then Dr. 
Jette.
    General Murray. Thank you, Mr. Chairman. And I would 
actually start the process a little bit earlier. So that the 
risk has to start to be assessed against what the Army has been 
told to do in the National Defense Strategy and that the 
concept that we have come up with to allow the Army to fight 
and win on the future battlefield.
    So that is, when we looked at, and both Dr. Jette and I 
were part of the process a year ago, or a year and a half ago, 
the process that you are talking about.
    The senior leaders--and you have heard this number before--
for up to 60-plus hours over the course of probably 2 months, 
so it wasn't for 60 straight hours obviously. And probably--and 
I was the G-8 at that time and most of the staff was mine. But 
between the 6- to 800 hours of analysis that went in to prepare 
for those 60 hours, each system was looked at with a common 
lens, is does this contribute to how the Army will fight in 
2028 to 2035. And if the answer was no, it will not contribute, 
that was kind of an easy place to look for resources.
    Mr. Norcross. But that is only one-half of the equation. 
The other ask is what risk are we assuming?
    General Murray. I am getting there, sir. So obviously there 
is risk to the industrial base. And I am going to allow Dr. 
Jette to talk about that. My role was primarily to look at it 
from an operational risk, and there is risk; if, you know, are 
you going to be able to maintain that piece of equipment 
because it is not like you just divested something and 
automatically produce something out of the air to replace it. 
So how much risk are you assuming with a legacy piece of 
equipment while we get new equipment in place.
    That was looked at and the 31, I think you said, efforts 
that the cross-functional teams are looking at, those were the 
key capabilities to allow us to fight and win on a future 
battlefield fiscal year 2028 along with the organizational 
structure. And so when you look at it with that lens, what is 
most important for the United States Army to protect this 
nation, that was the operational lens we looked at it from.
    Secretary Jette. Mr. Chairman, as General Murray said, the 
acquisition side was considered at the same time that the 
operational side was considered. So the first place that was 
confirmed was the value to the operational forces. Once that 
was made, then we took a look at the impact to programmatics 
and the impact to the industrial base.
    So for example, if a technology currently existed and we 
looked at it from a programmatic basis, could we end the 
contract, could we reduce the contract? What were the impact of 
doing either of those steps have on the contract value, so that 
we were honest and upfront about what type of harvesting might 
be made in the budget out-years.
    So we didn't want to go into this and assume that something 
may be $10 million, we are going to cancel it and we are going 
to get $10 million back when in fact we had obligations that 
maybe $8 million of it, so you are only going to harvest two. 
And that may be worth the risk and it may not and those type of 
things were considered.
    A second piece of consideration that was done in each of 
these was to take a look at the risk of terminating or 
curtailing a program to the continued sustainment of the 
existing program. So as you know, in many cases, we have large 
quantities of equipment. If I terminate a continuing upgrade to 
a particular set of equipment, now I have to change from an 
upgrade strategy being able to compensate for my sustainment 
aging, I now have to be able to adjust to just a sustainment 
mode.
    And we took a look at that, again, in the same light, what 
is affordability and what is the industrial base going to be 
able to sustain. And then we did take a look at the industrial 
base and the risks there on both sides. So the first side would 
be were we losing an industrial base, would we have a risk that 
we may be putting out, vendors may not be able to survive after 
a period of time, what would we do for those parts. Conversely, 
did we believe that the industrial base would be able to grow 
in the new venture, whatever that might be that we are 
producing.
    Mr. Norcross. So who put together the impact to the 
industrial base, those procurement definitions of minimum 
sustaining rate, who actually puts that together in what 
timeframe?
    Secretary Jette. So there are two questions there and I 
just want to make sure that I answer them correctly, sir. In 
the case of taking a look at the industrial base, the 
acquisition community, I have a large staff, we put together 
our assessments of where we thought things were. I have a 
Deputy Assistant Secretary of the Army that does----
    Mr. Norcross. Is that in conjunction with industry or 
outside of it?
    Secretary Jette. The initial assessment is always done 
internally so that we have a pretty flat view of what we think 
is out there. That way, we don't necessarily run into 
industry's interest in a particular direction. We want to make 
sure that we know what we think is right.
    Then we will talk to industry and we do. I meet with the 
Secretary as a continuing program every Monday evening, most 
every Monday evening we will meet with an industry CEO [chief 
executive officer] and president. We discuss these things with 
them and then my door is always open, I have a lot of people 
who come through it.
    Mr. Norcross. Probably an understatement on going through. 
So we have literally spent tens of billions on modernizing the 
Army, critical to both Army and DOD that are we getting the 
return on our investment and that can be measured in several 
ways. So the question, is the Army assessing its return on 
modernizations? It is very new, is it working as you originally 
designed it and expected, and to layer on top of that, the 
relationships between general and the doctor is different now, 
is that working? Is that relationship, do we need to define it 
any better? So those are two questions.
    General Murray. Yes, sir. So as you mentioned, and I would 
like to describe Army Futures Command as a startup trying to 
manage a merger right now, so it is very new. And I would say 
that it is working, because we are showing some early success 
with what the cross-functional teams are working on. I 
mentioned some of that just from my opening statements.
    Another example would be historically, if you look back 
over time, it was taking the Army 3-5 years just to get a 
requirement approved in the first place before it even went 
over to acquisition. We are averaging 3-5 months and that is a 
significant reduction in the time it is taking to get 
requirements approved.
    Mr. McCarthy and General McConville started a lot of this 
for us and we are carrying on that process to make sure that we 
are moving at the speed of relevance to get capability to our 
soldiers. Dr. Jette and I had a good relationship before the G-
8 and the ASA(ALT), the Acquisition, Logistics and Technology 
Assistant Secretary, have a relationship. I used to spend at 
least one day a week in his office and we could compare notes. 
And I would just say and I think he would agree that the 
relationship is only getting better and will continue to get 
better in terms of how we approach this.
    And I think the key thing there is we both have the common 
end state, of making sure--and it is not today's soldiers, that 
future soldiers have what they need to fight and win on a 
future battlefield.
    Secretary Jette. If I may, sir.
    Mr. Norcross. Is it defined as well as you would like to 
see it?
    Secretary Jette. Sir, I think I mentioned in our visit up 
at Picatinny, when you have such a change, you have storming, 
forming, and norming, and I think a reasonable description of 
where we are, we are past the storming, there are no hurricanes 
anymore, we still have a tornado roll by every so often. We 
discover some conflict between the two organizations and how we 
do business and General Murray and I then get together and try 
to resolve that. And so far, we have been very successful.
    As we do that, we are beginning to codify those 
relationships and different methodologies. For example, the PMs 
and PEOs that are linked together weren't sure of exactly how 
that was going to work, and it is taking a bit of a cultural 
difference.
    In the past, as I mentioned, there was--you did 
requirements, you did the acquisition, and that is how we met, 
but now literally they come together to work through those 
things, and so the acquisition people have the authority to sit 
there and say, Listen, that is great, but that is not 
achievable on that timeframe. Or you could achieve this if you 
just asked for it.
    Conversely, the requirements side of things can say, Well, 
why can't we do this and how come you are holding up the 
acquisition process that way when couldn't we try something 
else? So we are trying to find even more aggressive methods of 
working more closely together as opposed to against each other.
    Mr. Norcross. I know my colleagues want to ask some 
questions, I just before I turn it over, so I want to look at 
the Block 2, the Chinook as an example. I got into it a little 
bit more and we are going to get into the weeds when we start 
making those assessments of risk.
    So it is as proposed indefinitely put off for that. So we 
were out in Phoenix 2 weeks ago and learned that the decision 
to cancel this, the upgrades, was made without input from the 
contractor which is what you explained to me that you do. Is 
that phase one, it is your staff that comes up with that, but 
then you would go after that to industry.
    So on the CH-47F, the assessment was made and the minimum 
requirements to keep a line going is something that your office 
put out first. If there is a difference, significant, between 
what your assessment is and what industry who is on the floor, 
how is that rectified or addressed?
    Secretary Jette. So let me make sure I just clarify one 
detail, sir. The quantities, actually quantities that we want 
for a given year are not defined by the acquisition community 
but the requirements, so General Murray would bring that in.
    Mr. Norcross. But this is an order to keep.
    Secretary Jette. Yes, sir.
    Mr. Norcross. Whatever the program is, the minimum 
sustaining rate which is what you publish.
    Secretary Jette. Yes, sir. So the minimum sustaining rate 
is arrived at by discussing that with the contractor. It is an 
open discussion. We don't always agree on what we believe the 
number should be, and I am not sure we are done with fully 
understanding that in the case of the Chinook. At the same 
time, we are looking at--so when we say we are not doing the F 
model, it is not that we are not doing any Block 2, we are 
doing Block 2 for the G model which is basically an F model 
converted to the special ops community.
    Mr. Norcross. Right.
    Secretary Jette. And so we add those into the mix over a 
period of time.
    Mr. Norcross. That is eight a year I believe?
    Secretary Jette. Six, sir.
    Mr. Norcross. Six.
    Secretary Jette. And then on top of that, we have been 
supportive of FMS, foreign military sales, and there are a 
number of them that fill those.
    We are looking at other potential opportunities to bring 
partners into the mix to help us with some of the quantities 
right now. And I think the Secretary made it clear that in his 
discussions that this is a halt, it is a halt to try and find 
out where we need to go with respect to a true future 
technology for heavy future vertical lift. That doesn't 
necessarily exclude the 47, the 47 Block 2, or an alternative 
variant along. It is just a statement to slow down, stop, let 
us make reassessments and make sure that we are spending the 
taxpayer's dollars appropriately to meet the vertical lead--
heavy lift needs.
    Mr. Norcross. And the reason I am going into this is that 
if you arrive at it separately or individual, but they are 
close. On this one, they are saying you need 24 a year minimum 
to keep the line open, so if that is part of your risk 
assessment and it is radically different, that would 
potentially change the outcome of that decision making. So I am 
going to move on, but that is one of the areas that if you are 
using that tool and we have that big of a discrepancy and this 
just happens to be this one, what is the correction factor, how 
do we go after it?
    But we will talk about that later on.
    Mrs. Hartzler.
    Mrs. Hartzler. Yes. Thank you. Thank you, Mr. Chairman.
    And I think it really is refreshing what you have done 
already. I mean it is very impressive that Army leadership 
personally reviewed over 500 programs, weighing the benefits 
and looking into the future. I like what you said, General, 
that it is a startup trying to manage a merger. I think that is 
pretty good.
    And the example of how you have already been able to reduce 
from 3-5 years to 3-5 months some of the requirements, I mean 
that is impressive. So this is a great example of probably what 
we need to do all over government, is stop and look before we 
move forward.
    I did want to give you, first of all, General Murray and 
Dr. Jette, an opportunity to address some of the concerns laid 
out by Mr. Ludwigson, the GAO, and they did give you a lot of 
positives of things they are seeing that they feel good about, 
but there was four areas he mentioned.
    So regarding to the amount of personnel, do you have enough 
that you need, transparency on how you evaluate the 
modernization efforts, I think maybe that was some of the 
discussion we just had, and technologies, ways to reduce risk, 
to ensure that they are fully mature. So anything you would 
like to respond to those concerns that were laid out?
    General Murray. Thank you, ma'am. And I obviously have seen 
all of those GAO reports. And I was on the chopping line either 
as a G-8 or the Army Futures Command. And the Army, I believe, 
went back and concurred with every one of those 
recommendations.
    And I personally concur with every one of those 
recommendations. I think the first one, that ongoing 
relationship between the outside organization, ASA(ALT) is one 
of them, there are other organizations within OSD [Office of 
the Secretary of Defense] and within academia and within 
commercial industry that those relationships are being built 
and also within key universities throughout the country.
    So for artificial intelligence, we have established a 
presence at Carnegie Mellon University to begin to learn how to 
incorporate artificial intelligence into the way forward. 
Obviously some key universities in Texas, we have some presence 
and some partnerships. And so those are ongoing. So I believe 
that those things kind of take time, but we are in the process 
of establishing some non-traditional relationships, if you 
will, to include some innovation all around the country.
    In the plan to determine the value of the investments 
against the end state is where I kind of took that. I think you 
have to look at the timing of the report. It was prior to this 
budget and as Dr. Jette mentioned, this is the first budget we 
have presented to the Hill that I think clearly lays out where 
our priorities are in terms of modernization.
    I know there is also a question about investments in legacy 
programs and how they contribute and I think we continue to 
work to define very analytically how our investments are 
aligned against that end state that I talked about earlier.
    The people, then I think--you know, the requirements 
community is a pretty broad community and I think that is where 
the comment mostly was on the requirements and its systems 
engineers and operational research systems and analysis, our 
ORSA population.
    Just last Friday, I had all of my requirements people come 
to Austin and we sat down and talked about their needs and 
there is an element that is under strength throughout the 
requirements community and has been probably since budgets were 
pretty lean at the sequester year and during the 2016, 2017, 
2018 timeframe. And so we are taking a holistic look at what is 
required for the requirements community, trying to capitalize 
on the lessons of the CFTs which is also highlighted.
    And then on mature tech, I obviously am a huge fan of 
mature tech before you move to the program of record, but I 
think it can't be a one size fits all. I think you've got to 
take it on a case-by-case basis. Going back to risk, you've got 
to kind of look at the risk of letting that technology mature. 
But we definitely do not want to go back to betting on some 
very immature technologies and baking programs around those 
immature technologies which has gotten us in trouble in the 
past.
    Mrs. Hartzler. Sure. And getting those stakeholders 
including the users involved in developing the requirement is 
really important.
    I wanted to talk about a little bit the lessons learned and 
best practices that Army Futures Command has been able to 
identify to date and planning that incorporates as you march 
toward full operational capability this year, that includes 
examples of working with small business. Can you kind of talk 
about that a little bit, what you are doing with small 
businesses?
    General Murray. Yes, ma'am. So a couple of instances. One 
would be Army Applications Lab which is also located in Austin, 
Texas. And if you are familiar with the Defense Innovation 
Unit, it is not a carbon copy of it, but it is focused on 
outreach to small businesses and innovation throughout the--one 
of the things that I think is very promising that, just as an 
example, that we discovered through Army Applications Lab is 
the opportunity to inject virtual reality training into our 
basic pilot training.
    The Air Force has done this and they are a little bit ahead 
of the Army, but we are going to stand up a pilot at Fort 
Rucker this summer and we believe that we can significantly 
reduce the amount of actual flight hours with no degradation in 
the training. And when you reduce flight hours, you have the 
potential to probably every class saving tens of millions of 
dollars in terms of sustainment of aircraft, those hours you 
are not actually flying.
    Mrs. Hartzler. That is amazing. Dr. Jette and General 
Pasquarette, the next-generation squad weapon program is 
requiring a new caliber to be used in these weapons, a 6.8 
millimeter round. I understand that the ammunition is going to 
be produced at Lake City Army Ammunition Plant. Could you 
update us on this effort, and do you require any additional 
funding in fiscal year 2020 for additional tooling or 
modernized equipment at Lake City, which is near my district. 
Many of my constituents work there and we are very proud of the 
mission there.
    General Pasquarette. Well, I would talk, ma'am--thanks. I 
would talk in a broad sense on any of our efforts that General 
Murray is shepherding as the AFC commander to include next-gen 
squad weapon, when the requirements have been identified and 
validated, we have fully funded it in this program to include 
in fiscal year 2020.
    So there are near-term adjustments that are out there 
with--that I believe as this--and I have to check on this, but 
it might be with this system we are talking about here, but 
those were new--that is new information since we submitted this 
program and budget down to OSD, so that is why there might be 
minor adjustments. But programmatically, it is fully funded 
based on the requirements that we know today.
    Mrs. Hartzler. Dr. Jette.
    Secretary Jette. So you are right. The new round is going 
to be a different size and shape. We haven't confirmed exactly 
which, the shape, what the final shape will be because we still 
have a competition for the weapon to move forward and we have a 
common round between the two weapons, the automatic and the 
rifle.
    We then will have to go back in and review the development 
of the hardware that is necessary to produce the rounds 
specifically, but at this point I don't believe that we see any 
additional funding that is necessary in the 2020 budget in 
order to accommodate that for production.
    Mrs. Hartzler. Great, thank you. Dr. Jette and General 
Murray, if United States withdraws from the INF [Intermediate-
Range Nuclear Forces] Treaty in August in response to ongoing 
Russian violations, does the Army intend to remove the 
previously imposed range restriction for long-range precision 
fires that complied with the treaty?
    General Murray. And, ma'am, if I could just go back to your 
last question? There was a 2019 mark against the rifle that 
causes a quarter slip if it is not restored. I think that was 
what the request was. And yes, ma'am, we are looking at that.
    Obviously, the treaty is still in place until August when 
the 6-month period runs out for, I guess, to change your mind. 
But within specifically the Precision Strike Missile [PRSM] 
which is the ATACM [Army Tactical Missile System] replacement, 
ATACM 350, right now, we say PRSM is 499.9 [km maximum range] 
to stay within the INF Treaty. We are already planning future 
upgrades to get well beyond 500 if the treaty is not in place.
    Mrs. Hartzler. Great, thank you. I have more, but I will 
wait for the second round.
    I yield back. Thank you.
    Mr. Norcross. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair. And thank you to all of 
you for being here today. General Pasquarette, the Army has 
emphasized the necessity to invest sufficient funding into its 
modernization priorities. In your written statement, you 
mentioned that the Army has protected key legacy systems.
    Just trying to get some insight as to how that process 
ensued, how did the Army determine which programs to protect?
    Two, what was the analysis that supported this election of 
these systems?
    And three, who were the Army leaders and program 
representatives involved in those discussions and decisions?
    General Pasquarette. Well, it was some of it we have talked 
a little bit, sir, but I will recount a little bit of it and 
then a little more detail. The analysis was conducted, it was 
kicked off by our analytical agencies back when Russia 
actually, the intervention in Crimea had us take a hard look at 
what our requirements to deal with Russia, that was our first 
wake-up call as we were trying to, still committed fairly 
heavily in Iraq and Afghanistan.
    But that was the leading analytical assessment by our 
Center for Army Analysis and TRAC [U.S. Army Training and 
Doctrine Command Analysis Center] and others. That informed 
eventually what was produced in the NDS and identified our 
capability requirements we need that General Murray is leading, 
the six modernization priorities, but also looked at our near-
term gaps based on OP [operations] plans of our legacy systems 
that we needed to invest in today also.
    That produced the need to upgrade our armored brigade 
combat teams as an example when we looked at requirements 
versus Russia. And what we have ended up doing and as a result 
of that is coming up with a strategy to modernize our armored 
brigade combat teams at a rate of 1 to 1.5 a year, and this 
program here is a result of that analysis.
    So those are legacy systems that we have been on in one 
form or fashion for several decades that we will upgrade them 
incrementally to keep them as best, as good as they can be, in 
some ways integrated to what Futures Command will bring online 
over time and will replace. An example is the future ground 
combat vehicle, eventually we will replace the Bradley as an 
example.
    So I think that is an example. Our Stryker fleet is another 
one that we are--we will have Strykers in our formation until 
at least 2035 and we are investing about $750 million a year 
roughly in our Strykers across the FYDP to keep them as 
incrementally as good as they can be out for the next 15 or 20 
years.
    General Murray. And sir, I will just add--and General 
Pasquarette makes a great point. But the reality is, we have to 
be ready to do both. We have to be able to be ready to fight 
tomorrow and we have to be ready to fight in the future.
    And that is an element of the risk that when you look at--I 
mean do you upgrade a system or do you not upgrade a system, 
because there is not an endless pot of money and the Army is 
not asking for that.
    We're going to have to make some financial decisions based 
upon the concepts that I talked about earlier that have been 
run through modeling and simulation to the point where we are 
confident that with multi-domain operations, with certain 
organizational structures, with the key things we are trying to 
pursue in modern systems, we can get to a win on the future 
battlefield.
    And so it has been through extensive modeling and 
simulation, experimentation if you will, to determine that. The 
senior leaders, Dr. Jette was there.
    I was there as the G-8; the Secretary of the Army was 
there; the Chief of Staff of the Army was there; the Vice Chief 
of Staff of the Army was there and the Under Secretary of the 
Army was there; the FORSCOM [U.S. Army Forces Command] four-
star commander was there; the AMC, Army Materiel Command, four-
star commander was there; the Training and Doctrine Command 
four-star commander was there; plus experts from Dr. Jette's 
side and experts from the requirements side to make sure that 
we stay grounded. But the decision making was really the 
corporate, the board of directors if you will for the United 
States Army.
    Mr. Carbajal. Thank you very much.
    Mr. Ludwigson, many Army leaders at various levels have 
stated that the service will now pursue incremental 
acquisitions that are ``good enough'' rather than exquisite 
solutions that solve all problems.
    Does GAO support this path to capabilities development?
    Mr. Ludwigson. Thank you, sir. I think that we are very 
positive as it relates to incremental acquisitions. I think 
that one of the pivots that is helpful is to shift from 
aspirational acquisitions to thinking agile. And the way to 
meet our recommendation as it related to implementing with 
mature technologies is to recognize that you build now what you 
can and you invest for the future and you add what is available 
when it is available rather than building that into program of 
record and then if it doesn't work out, particularly if it is a 
critical technology, ending up not being able to deliver on 
time and on schedule.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back.
    Mr. Norcross. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I will apologize in 
advance for my cynicism. General Murray, thank you for your 
patience.
    We talked about some of these--I am still trying to come to 
grips with the CH-47 Block 2 and we will probably have this 
conversation. I heard one of the comments about some of these 
things might take decades and I can't think in terms of that, 
not the way the Chinese and the Russians are modernizing, 
particularly the Chinese. We don't have decades.
    And so I am probably very, very impatient. I think what you 
are doing I think is outstanding and I want to give you a 
compliment. A number of years ago, I was one of those ones who 
was beating the drum about the active protective, protection 
systems, and this and that. I got a lot of pushback and of 
course I used the Israeli scenario. And we got four brigades 
that have them right now.
    What is the prognosis for the rest? Are we still looking to 
flesh that out or?
    General Murray. The requirement is every combat vehicle has 
active protective system eventually. So we are exploring--
Trophy is the system you are talking about, it is too heavy for 
our Bradleys and Strykers so we are right now in the process of 
proving out a different system. And then for the next-
generation combat vehicle, the Bradley replacement, one of the 
threshold requirements is an integrated active protective 
system.
    Mr. Cook. You know, I know the Dutch had something for 
their APCs [armored personnel carriers], I don't know whether 
they did, but as long as you are looking at other systems like 
that I'm very, very happy, and just the fact that, I guess, 
Iron Dome where you have that cross-pollinization.
    Are you also exploring some of those systems that I just 
mentioned?
    General Murray. Yes, Iron Dome specifically, the air 
defense system, yes, sir. But I think it was the 2018 NDAA 
[National Defense Authorization Act] directed the Army to field 
two batteries by fiscal year 2020. There is an ATR [above 
threshold reprogramming] associated with it. It is not above 
threshold reprogramming, it is not additional dollars. We need 
to turn some RDT [research, development, test] dollars into 
procurement dollars; that is on the Hill right now. And if we 
can get kind consideration in a relatively timely fashion, we 
think we are on track to meet two batteries by 2020 and 
additional two batteries by 2023.
    Mr. Cook. I think that would be great. Vertical lift, 
future vertical lift. These timelines on when do you fish or 
cut bait or how we are going to do this, we are talking about a 
lot of money and where we are going. Are we going to be fed in 
on that a little bit so you can help us in terms of--because we 
are going to make recommendations in the budget and everything 
else and this is very, very important, so could you comment on 
that a little bit?
    General Murray. Absolutely, sir. And as you know that there 
are two versions of future vertical lift we are working on 
right now, some call it CAP SET 1 [Capability Set 1], we are 
now calling it FARA, the Future Attack Reconnaissance Aircraft; 
and then FLRAA which is the Future Long Range Assault Aircraft.
    Roughly speaking, the first one I talked about is a scout 
which we divested our scout aircraft based upon----
    Mr. Cook. A more Kiowa----
    General Murray. Yes, sir. Which is a critical gap we are 
seeing in the future fight, so that is our number one priority. 
And then the second one is really a medium-lift helicopter that 
would replace the Black Hawk which is very, very vulnerable.
    Apaches will be in the fleet for a long time and then the 
CH-47 when we went through the analysis, it is the youngest 
fleet we have in terms of production and it met the operational 
requirements we were looking at. And I understand your 
position; my position is it meets the requirement we have in 
the near future.
    But the two future vertical lift aircraft are the Army's 
priorities with the first one being FARA and the second one 
being FLRAA and we would be happy, and we spent a lot of time 
over here already both Dr. Jette's staff and mine, so the 
staffers fully understand where we are trying to go with those 
two aircraft.
    Mr. Cook. Yes. And I appreciate that.
    By the way, you didn't give me my gouge on acronyms. I 
won't say a word. Next time, please, a list so I can understand 
it, because it changes every committee. My time is running out.
    The last thing, you know that I am going to keep banging 
the drum on the MICLIC [Mine Clearing Line Charge] about mines 
and everything else, and as I said over and over again, that 
was used by me in Vietnam. And I tell you, I am not 39, this is 
many, many years ago and we are still using that stuff and we 
still don't have it straight. So that is my big item.
    Thank you, Mr. Chairman.
    Mr. Norcross. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel witnesses for your testimony and 
thank you for your service to the country.
    Secretary Jette, I want to start with you if I could. The 
Army's Future Years Defense Plan looks to shift more than $30 
billion toward modernization, the bulk of which is under the 
purview of Army Futures Command. As you know, our enemies and 
adversaries have invested heavily in offsetting our advantages 
in a number of areas, particularly in the electromagnetic 
spectrum.
    I want to know, how is the Army building EW [electronic 
warfare] resiliency in the modernization efforts to ensure that 
new platforms and systems will function in a contested 
environment?
    Secretary Jette. Thank you, sir, for the question, because 
it is one of my areas that I just find very, very important.
    I helped develop some of the critical systems for the 
Army's electronic warfare when I was back in uniform. EW 
remains essential to how we work on the battlefield. The bar 
keeps getting raised, and I think that we are working 
diligently and it is a very challenging area. But we are 
working diligently to try and contend with that raising of the 
bar.
    How we can apply electronic energies to disrupting the 
opponent's electronic systems and how they can disrupt ours, it 
becomes more and more challenging as we go along. And so we 
have to have an offsetting strategy. There is the offensive 
capability and the defensive capability.
    It used to be just simply a question of jamming and 
spoofing, and now what we are having to do is also assess each 
of these weapon systems for insertion; so it is a more 
sophisticated variant of spoofing by actually inserting things 
into the system and letting them run like a virus or to trick 
the systems.
    To do that, we literally start all the way down at the chip 
level in some cases, we will actually buy chips for critical 
systems, open them up, look at them, look at the second 
vendor's chips, open them up, make sure there are two dies, we 
know where the dies came from themselves and we have been 
working our way right from the supplier level up.
    We are doing reviews on our existing systems in that matter 
to make sure that they are not vulnerable, and then we are also 
all of those steps are being incorporated in our assessment of 
the new systems.
    Mr. Langevin. I just want to make sure this remains 
obviously a high priority and remains dynamic, that it's not 
just a one and done, but obviously ongoing review and point 
counterpoint.
    Next, I want to also, on that same area that on the 
cybersecurity front, we have seen a number of vulnerabilities 
identified in major systems, through the 1647 process. So I 
want to know is the Army position to finish its 1647 
assessments by the statutory deadline?
    General Murray. I am not sure I have a good answer for you, 
sir. I will have to come back to you.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Langevin. Okay. I appreciate that. And then as a 
follow-up to that, one of my concerns from the 1647 reviews is 
that lessons learned need to be fed back into the requirements 
development process, and so I also will ask how are resiliency 
measures being baked into new acquisitions from the start?
    And given the dearth of metrics in the cybersecurity space, 
I also want to know what specific metrics you are using to 
ensure that delivered systems meet the requirements for 
resiliency. So if you need to get back to me on those, for the 
record, we can do that. But that is a priority that I would 
like to get an answer to.
    General Murray. Yes, we will take that, sir.
    [The information referred to can be found in the Appendix 
on page 77.]
    General Murray. But I would add--so it all starts with the 
requirement. And so we talked about the four-stars as part of 
the review process we had. So we still have a requirements 
process in place. And one of the things that General Milley put 
in place when he became the Chief of Staff of the Army was Army 
Cyber Command is part of the requirements process.
    So we look at what we need for cyber protection before a 
requirement ever gets approved, to ever go over to Dr. Jette 
and be produced.
    Mr. Langevin. Okay. Thank you for that and I look forward 
to the additional answers on the record.
    In your joint statement, you referenced directed energy, 
factors to address the air and missile defense mission. I am 
specifically interested in the transition from initial mobile, 
short-range air defense to directed energy systems and I wanted 
to ask if you can discuss your progress on these efforts so 
far, as well as how you are training soldiers to operate such 
systems.
    General Murray. So we have had several efforts with very 
small low-power lasers that we call MFIX [Maneuver and Fires 
Integrated Experiment] at Fort Sill, Oklahoma, against mostly 
small unmanned aerial vehicles. And those are real soldiers 
operating those. They get feedback from the soldiers in terms 
of the interface with the firing mechanisms, the equipment, and 
we are seeing some great success in terms of small-power 
lasers. The laser I think you are talking about is a higher 
power laser that right now we are planning to integrate into a 
larger air defense platform in around fiscal year 2023.
    And so right now we are focused on getting it out of S&T 
[science and technology] and getting it into development. And 
Dr. Jette has graciously assigned a program executive officer 
[PEO] to help us do that, which never had a PEO in the past and 
not only directed energy, but also hypersonics. And they are 
working very, very closely with the air and missile defense CFT 
and the long-range precision fire CFT.
    Mr. Langevin. Thank you. I know my time has expired, and I 
am glad to hear you are getting ready to do the transitions, so 
once the technology matures, my message is get ready because it 
is coming.
    I follow directed energy very closely and it is getting out 
of the labs and getting to a mature level; it is going to be an 
effective capability for the warfighter.
    So thank you.
    Mr. Norcross. Thank you.
    Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chair.
    We will go from directed energy to simple ground combat. 
How is that for yin and yang?
    We had a brief, a secure brief, a classified brief quite a 
bit ago, on their situation in Europe, ground combat vehicles, 
tanks, their survivability and lethality, and upgrades that 
were being done. You outlined--and the GAO report outlines, the 
September 2018 report on page 5, the process of the investments 
being made in Bradleys, in Strykers, and a variety of the 
ground combat vehicles, how much money is going to the plan to 
upgrade those additional armored brigades.
    Is that adequate near term to keep us in a position we are 
able to defend Eastern Europe at this point in time in your 
opinion?
    General Murray. It is, in my opinion, sir, and I think one 
of the things we often overlook is we look at individual 
systems. The Army fights in formations.
    Mr. Mitchell. Yes.
    General Murray. And when we looked at the Army brigade 
combat team, the Abrams tank, we are doing an upgrade to the 
Abrams. So, we will go to SEPv4 [System Enhancement Program 
Version 4].
    Mr. Mitchell. Yes.
    General Murray. And that, in my opinion, that is still the 
most capable tank in the world. It is too heavy, but it is 
still the most capable tank in the world. And when we looked at 
the Army brigade combat team, the most vulnerable combat 
vehicle was the Bradley and that is why we chose to replace it 
first.
    Mr. Mitchell. Well, you are right. It is heavy. Is the 
number of Abrams you are talking about for Eastern Europe in 
these upgrades are they adequate number over the term that is 
projected?
    General Murray. Well, deterrence is in the mind of the 
beholder.
    Mr. Mitchell. Sure.
    General Murray. So, one of the things we are looking at is 
posture. I mean, do we need to have more posture? And it has 
been talked about in hearings over the last 2-3 months. We can 
accomplish that in one of two ways, either through forward 
presence or rotational basis.
    Right now, the Army is in a rotational basis. So, I think 
that is appropriate. And I think here next calendar year, you 
will see an increase in the number of rotations or possibly the 
size of rotations and exercises we are doing to get after some 
of that and then of course, we just deployed a brigade on no-
notice exercise from Fort Bliss, Texas, to draw the equipment 
we have prepositioned and exercise in. So, we are working 
various ways to get after, I think, the mass that you are 
talking about.
    Mr. Mitchell. It is just in my opinion necessary to keep 
that while we are modernizing, because I don't believe it is 
becoming any less dangerous a place in Eastern Europe.
    General Murray. Yes, sir. You have to be ready to fight 
tonight and you have to be ready to fight 20 years from now, 
and that is the balance we are trying to achieve.
    Mr. Mitchell. Let us talk a little bit about the next-
generation combat vehicle [NGCV]. The May 1st report talks 
about some of the unfortunate outcomes in terms of the future 
combat vehicle and a fair amount of money has been invested in 
this over a couple of efforts that had been, in fact, ended 
because they were premature at best.
    Are we comfortable at this point in time where the next-
generation combat vehicle is going in terms of the, we are on 
track to accomplish that in your opinion?
    General Murray. We are and I am very comfortable. And so, 
one of the--besides immature technologies, another problem we 
have with Future Combat System, there was--when you step back 
and look at it, there was no concept that it was supporting. 
So, it was a pretty amazing capability if we got to it. But it 
really doesn't fit the battlefields of Iraq and Afghanistan.
    So, NGCV, OMFV, if you will, the optionally manned fighting 
vehicle, fits the MDO [multi-domain operations] concept. So, it 
is critical to the concept. So, they are coming hand-in-hand 
just like we did in the 1970s and 1980s with the Abrams and 
AirLand Battle.
    The other thing I would say is, in this case, it was 
mentioned before, these are mostly non-developmental vehicles. 
So, these vehicles exist today. Now, there are some going to be 
some integration challenges and we are trying to make some 
upgrades and we are watching that very, very closely to make 
sure that the technology is mature enough. But for the most 
part, these vehicles exist today.
    Mr. Mitchell. One last question for you. You mentioned 
optionally manned or autonomous combat vehicles which are 
wonderful in concept. My concern is the ability of them to 
communicate some form of control.
    Given the active electronic warfare we saw exhibited in 
Eastern Europe and Ukraine, you are well aware of the 
capabilities, so much so we can't talk here.
    I still have not gotten a compelling answer as to how we 
are addressing that for these vehicles or for this technology. 
Can you give us any general information, we can talk about it 
later, because I am really concerned that we develop this 
capability.
    General Murray. Just very quickly and then I am going to 
let Dr. Jette talk to the specifics, but one of the reasons 
they are optionally manned as opposed to fully autonomous is 
what you bring up. So, commander on the ground based upon a lot 
of different factors.
    And one of them would be the electromagnetic spectrum. Do 
you choose to man the vehicle or do you choose to go tele-
operated really is what we are talking about.
    Secretary Jette. Sir, I think that you bring up a great 
point. When we talk about an unmanned system, getting to an 
unmanned system, a fully autonomous vehicle, I do not believe 
it is around the corner. That is going to be quite a bit of 
work before we allow something to go off into the field with an 
armed weapon system to be able to fire at will.
    That leads you back to your question about how do I make 
sure I remain in control of it. And so, that, too, has a lot 
of, Well, I think this, but I haven't proven it yet.
    So, we have a number of technology efforts ongoing. One of 
them, we have got a turret development program that we are 
working on right now which is essentially taking a 30-
millimeter turret and I flip the button on, it finds the 
target. It classifies the target. It determines if it is a 
threat or not. It then categorizes which one is the most 
threatening. It does the fire solution and then it can fire.
    And it can do that entire loop alone. That is the objective 
of the experiment. The reason is to then figure out where we 
put in the gates and where we can apply AI [artificial 
intelligence] in the background to be able to manage that more 
effectively. We have a number of communications technologies 
that we are working on as well that are very nascent that will 
enhance our ability to make sure we retain communications. But 
I would rather discuss those in private.
    Mr. Mitchell. Yes. And I would ask, Mr. Chair, if we could 
do that at some point in time is schedule to have a 
conversation, a briefing on communication technologies for not 
only in this case, but these optionally manned or semi-
autonomous vehicles and how they communicate under various 
threat scenarios because it is starting to concern me that 
we've seen the ability to infiltrate those and damage that.
    And without the ability to communicate, our people in the 
field have a very difficult time responding, protecting 
themselves, or never mind defending the area.
    Thank you. And I yield back. Thank you, gentlemen.
    Mr. Norcross. Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair.
    Gentlemen, I am new to the committee and I am perhaps a 
little bit more at home in seapower, having served in the 
Marines, and becoming familiar with the Army, and that is why I 
came here today. It has been helpful to sit here and listen to 
you all talk about this budget, about your modernization 
efforts, and go back and forth.
    So, really, I think being the last one to ask a question, I 
will just put something out there for you or anything that you 
have missed that you like to talk about in regards to this 
modernization budget request and how it aligns with the NDS, 
specifically its emphasis on peer competition with larger 
forces like China or Russia and others.
    The entire time I served, I was in Afghanistan and Iraq. 
So, hearing your testimony talking about some of the ways, 
perhaps where some capabilities have atrophied over time as you 
focused on that mission, do you have any specific examples you 
haven't had an opportunity to talk about today that you would 
like to throw out there that will help us understand why you 
are putting a priority on some of these new systems, what is it 
that you are worried that you have not been focused on over the 
last 18 years or so and when you think about competitors of the 
future.
    General Pasquarette. I will just start, but I think it is 
appropriate General Murray probably follows up.
    I think some of the questions we have got is why are we 
having to do this now. I would say because the capabilities we 
need for our soldiers in the future, they do not exist today in 
large part. We have to start with the research and development 
now and that is a lot of dollars we have to move internally to 
do that to produce, that eventually shift to procurement to put 
in soldiers' hands by the time when we need it in our strategy.
    So, some of the questions we have gotten is 2028 seems like 
a long way away, but what we are trying to produce and what is, 
will be relevant in that potential future conflict against 
Russia or China does not exist today and that is why we are 
asking General Murray to lead the way on.
    General Murray. So, to me, it always comes back to the 
concept. So simply while you and I were involved in Iraq and 
Afghanistan, both the Russians and the Chinese watched how we 
fought back to Desert Storm and then the opening phases of 
Iraqi Freedom, and they vowed never to face the United States 
Marine Corps and the United States Army in close combat. And so 
they have developed systems to establish standoff, much like a 
boxer uses a jab to keep somebody with shorter arms away from 
them.
    And so that is fundamentally what we saw in the Ukraine and 
with our next-generation warfare study. And what we are seeing 
really in a lot of places like the South China Sea and along 
the coast of China is this problem called standoff--a different 
problem than we had during the Cold War, but a similar approach 
to how do we solve this standoff problem. And it is not just 
the Army; it is how do we enable the joint force to solve this 
standoff problem. I think that is driving a lot of our 
modernization strategy.
    Secretary Jette. Sir, I think General Murray has it exactly 
right. Requirements drive the acquisition process. I spent a 
lot of time operationally. I spent a lot of time in Iraq and 
Afghanistan as well. While I am an acquisition professional, I 
understand that there is no purpose in me developing something 
if it doesn't have operational value.
    So to that end, the number one requirement is let us take a 
look at what the potential adversaries are doing and how we can 
counter their capabilities, and the standoff is a significant 
one. If you take a look at Eastern Europe, you will see the 
Russians doing exactly what he says. They do not want to get in 
a face-on-face fight with an M1 tank. Therefore, they put a 
large amount of rockets, artillery, and mortars, and they put 
air defenses in place to try and protect those assets.
    So we are adjusting our capability in long-range precision 
fires to be able to get at those, take out the protection 
measures that they have in place for air defense. And then we 
have got defensive systems, particularly the directed energy we 
are putting in place to be able to counter the inbound systems 
as well.
    Mr. Golden. Just a few seconds left here, but so I have a 
greater understanding, you are telling me what they want to do.
    Is it still our goal then to defeat their efforts to hold 
us off so that you can close with them and get into that face-
to-face or are we changing the strategy and getting into more 
of a long-range fight as well?
    General Murray. So, both. So, we have changed the doctrine. 
And part of it is competing below the threshold of war which is 
also going on each and every day and you see it in the 
newspaper each and every day.
    So how do we get to a strategy where it is not black or 
white? We are at war. We are at peace. And it is a conflict 
almost every day--or not conflict, excuse me, competition. And 
then, if it goes to conflict that we have the ability to defeat 
that standoff that they are trying to achieve.
    And like I said, it is really to enable the joint force 
because right now, the standoff they have created does not hold 
just the Army at bay. It holds really the joint force except 
for some very expensive and exquisite capabilities.
    So how do you enable the joint force? And then, really, how 
do you do this in such a way that we never have to use it, that 
we invest this money and we achieve deterrence. We never have 
to prove that we can defeat that theory.
    Mr. Norcross. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thanks so much for your service to our nation 
and coming in to testify today.
    General Murray, I want to begin with you. You had spoken in 
your opening testimony about the air and missile defense 
modernization priority and specifically, it was mentioned the 
Army is pursuing acquiring Iron Dome and that as you pointed 
out is an interim solution for indirect fire protection 
capability specifically against unmanned aerial systems, cruise 
missiles, other projectiles coming in.
    Certainly understand that. I know the Marine Corps is 
looking at the same sort of system as that indirect fire 
protection capability. In looking at what Israel has done and 
how effective Iron Dome is, they report that there is about a 
90 percent effectiveness in taking down incoming targets 
through this interceptor system. That is good news.
    The challenging side is, is that it is about $100,000 per 
shot. So the Israelis have looked at directed energy. They have 
looked at the comparable system using a laser family of systems 
called Iron Beam to be able to take out those threats at a 
much, much more efficient and cost-effective cost per shot.
    Can you give me your perspective on how the Army is looking 
at directed energy in its effort concerning indirect fire 
protection capability and how you see integrating that into 
your future doctrine?
    General Murray. Absolutely, sir. And so, I have not heard 
of Iron Beam. I will definitely look into it. But in terms of 
directed energy strategy, so right now we are on a path to 
integrate directed energy onto our Stryker air defense vehicle 
in I'd say roughly the 2023 timeframe because we are still 
trying to pull it out of S&T and I do not want to make too much 
of a bet too early that we'll be at 2023. But that is 
absolutely the goal we are working towards.
    Effective against rockets, mortars, artillery, small UASs 
[unmanned aerial systems], that type of power of directed 
energy laser, if you will. And then, there is also another S&T 
program that is on a much bigger truck, a much higher energy 
that we'd get after some larger targets that we are working on. 
And once again, not only hypersonics, but Dr. Jette has been 
gracious enough to stand up a PEO office that is working 
getting that through S&T. And so, there is somebody there to 
catch it. So, we are trying to cross that valley of death with 
these S&T efforts to make sure we can get them into a program 
of record.
    Mr. Wittman. That is great. Thank you, General Murray.
    Dr. Jette, I wanted to get you to maybe to elaborate on 
this and looking at how the Army is going about modernization. 
Can you comment a little bit more on how directed energy is 
going to be integrated into that effort? So, it is not just 
things like laser family of systems, but it is high-energy 
microwaves where you can address swarms of these potential 
adversarial platforms. Can you talk about that?
    There is a lot of technology going on in the other service 
branches as they are bringing this to bear. The other service 
branches, too, have very specific elements in their program 
decision making for rapid prototyping, rapid acquisition to 
bring this technology using COTS, commercially off-the-shelf 
available technology, trying to get that as quickly as we can 
to the warfighter.
    Can you speak a little bit about the Army's effort in that 
realm?
    Secretary Jette. Yes, sir. Just--so General Murray made the 
point that we have established a Rapid Capability and Critical 
Technology Office [RCCTO]. It is headed by my senior PEO. He is 
a three-star general. His background is in space, missiles, air 
defense, but he is very technically competent as well as 
programmatically competent and it has been a real blessing to 
get him on hand.
    As we have set that organization up, I established some 
specific efforts to frankly find all of the cats. Everybody is 
out there working on something they call directed energy and I 
am trying to figure out what that really means and what they 
are really doing. And so, we have--we know where--we think we 
know where most of the cats are, not all of them. We are also 
beginning to herd them in.
    We pass that off. RCCTO has just been stood up in 
literally--I went down for the promotion ceremony for my three-
star a week and a half ago. So, he is taking that role on to 
make it a formal program and clean that up. We do have ongoing 
efforts to move from a 10-kilowatt on a Stryker to a 50-
kilowatt. The Navy, for example, has already a 100-kilowatt and 
their nice 20-foot shipping container.
    But what makes lasers difficult, it is not just being able 
to put energy out the front end of it, it is keeping it cool so 
it doesn't melt.
    Mr. Wittman. Yes.
    Secretary Jette. It is powering it. It is getting the 
targeting data and all of those things. When you try to shrink 
all that down and keep a continuous beam, it becomes very 
difficult.
    Mr. Wittman. Yes.
    Secretary Jette. They have got a ship to stick it on the 
front deck of and use all the other assets. We don't have that.
    Mr. Wittman. Got you.
    Secretary Jette. I will just--my last thing is I will say, 
yes, sir, we are doing some work in the other--it is not just 
lasers in directed energy and we are working in those areas as 
well and they might be something better to talk about 
separately.
    Mr. Wittman. Very good. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Norcross. Ms. Sherrill.
    Ms. Sherrill. Well, thank you, gentlemen, for being here 
today. Thank you, Dr. Jette and General Murray, for visiting 
Picatinny and seeing the wonderful work the men and women do 
there. I know I heard some great things from the base about 
your visit and I appreciate you taking the time to do that.
    Dr. Jette, I believe that highly skilled acquisition 
professionals are exactly what we need to ensure that we 
modernize government-owned, contractor-operated ammunition 
facilities correctly. But it does concern me that modernization 
funding which was recently moved from the equipping line of 
effort where the joint program executive office had visibility 
and control to the sustaining line of effort creates a 
situation in which modernization funding could be tapped into 
for other priorities.
    Additionally, it creates a situation in which funding is 
not fully aligned with the responsibilities and authorities of 
the lifecycle manager at Picatinny, and as a result, there is a 
lack of accountability. Will acquisition professionals at 
Picatinny who have the lifecycle responsibility for ammunition 
from development to production, to maintaining, to disposal, 
continue to receive the funding authority and responsibility to 
continue to remain responsible and fully accountable and funded 
for carrying out this important mission?
    Secretary Jette. Thank you, ma'am, and thank you for the--
we had a great time at Picatinny and I appreciate the comments.
    This is a great area of importance to me. One of my top--
when I was first coming into the job, I said I am going to do 
top 10. What are my top 10? One of them is the development of 
the right talent base and putting them in the right place. So 
we have a significant program plan that develops the talent and 
makes sure that we have the right people in the right place and 
that they have proper training.
    Congress has been very gracious to the acquisition 
community in providing us methodologies by which we can send 
people to school if necessary and all our constraints become 
our problem with timelines in their career path. To that end, 
the Secretary has stepped in and made a specific effort to find 
ways to mitigate any of the timeline issues in a person's 
career development. So, I can see a significant improvement 
coming along.
    With respect to the funding moving from the EE PEG 
[Equipment Program Evaluation Group] to the SS PEG [Sustainment 
Program Evaluation Group], there is a little bit of a cheat in 
that because I am the co-chair of EE PEG and I am the co-chair 
of the SS PEG. So, I am watching those funding lines 
specifically. I recently went down to the ammo plants, 
particularly I went to Holston and Radford. While the two 
plants are very functional, they are clearly--we need to work 
significantly on our tech base.
    I recently have been working with my military deputy for 
acquisition who works my uniform side and does most of my 
program management oversight for me, and we tentatively, so I 
am being a little wishy-washy on my commitment because I am 
trying to finish the details of it. But I see this as being a 
significant issue. These plants need more attention to a long-
term program that meets the operational needs as we see them in 
the future, and the need to do that is not an incidental 
capability that is kind of put on the PEO armaments and 
ammunition.
    But he retains control because he controls the ammo, but we 
are looking at putting--creating a strategic PM specifically to 
work on the GOCOs [government-owned, contractor-operated] and 
make sure that those are properly planned and the proper 
funding profiles get into the POM [program objective 
memorandum] and that those programs actually modernize those 
plants which are--as you--if you have been to them are not 
terribly modern.
    Ms. Sherrill. So my concern is simply that I think 
Picatinny has a great relationship in the full life cycle of 
the ammunition. And I think that has helped Picatinny in some 
ways uniquely bring their research and development to the field 
more quickly and more efficiently than what I have seen in many 
areas of our military.
    And so I guess with that as a model and as well as they are 
doing at that, I am concerned about changes to what we might 
see coming are the--I think there is a draft of transition to 
sustainment. I am concerned about how that might affect the 
great work that Picatinny is doing.
    Secretary Jette. Yes. The transition to sustainment--so, in 
the way that we deal with ammo, as soon as it is produced, it 
fundamentally transitions to sustainment. We hand it over to 
the command to store it and manage it until it gets to the 
point of disposal. Then there is sort of a linkage between the 
PEO for the ammunition and the AMC [Army Materiel Command] 
entity that manages the storage and transportation of the ammo.
    So it is treated very differently and it is not this 
transition to sustainment where I have got a vehicle and we are 
trying to determine whether or not to pass it off to AMC as a 
completed vehicle with no further need for development. The--
Picatinny is essential. All the processes that we do with the 
plants come from Picatinny. My concern is that I don't think 
that the portion of the enterprise that does the actual 
production has the foresight to be able to develop better 
production plans for the capabilities Picatinny brings to the 
table, and then that is the part I am trying to fix.
    Ms. Sherrill. Well, I really appreciate you talking to me 
today. I would love to talk more about this and get a better 
understanding of how we can engage, because I do think that you 
see how important Picatinny has been to the modernization of 
our Army and I just want to make sure we don't lose any of 
those critical capabilities, but thank you so much.
    Mr. Norcross. We are going into round two if you want to 
stick around. Because as we went through and had our first set 
of questions, there was probably 2 months ago when there was a 
question of trying to move some funds around that we had within 
the Department of Defense for another item, the wall.
    And military construction leaked out, who was going to do 
it, and we got all the phone calls in the world. And I said 
that is just a practice round for what we are doing today. And 
to try to explain that, as far as I know there has never been 
this level of change in the history in terms of review, plus-
up, plus-down, or eliminate. So when we are questioning 
particularly it may get into some of the deep-rooted questions 
of how the assessment is made, it is because I have 300 
requests to change what you just handed us in this request.
    I know you understand that, but we just brought the example 
up on the industrial base. Once we dismantle--and it happens 
all the time--that industrial base wherever it might be, 
because we are anticipating that next generation coming on in 5 
years. And then, in 5 years, it gets delayed, and we know how 
that goes, 4 years. You do not reassemble that industrial base, 
and that is much of our concern in addition to all the risk 
assessments for the six priorities.
    And times that all 300 programs because it is somebody's 
district, is why we are digging in. We better understand it--I 
get much better response when you dig deeper into these issues 
and that is where I want to go now is the relationship that you 
are standing up. Something as massive as this not having more 
problems, it means good basic design.
    So, Mr. Ludwigson, when we start looking at--and this is, 
Mikie had a great question, you'd like to have one size fits 
all so there is uniformity, but the uniqueness of each of the 
programs that we have doesn't lend itself to that. When you are 
looking at the relationship that is going on now from the 
acquisition side to the general's piece, is it working?
    We are early--is there anything you would recommend in 
terms of tweaking, changing, getting feedback that you do each 
and every day that we can look at now or potential for running 
into an issue later on?
    Mr. Ludwigson. So, obviously, when we did this work it was 
early on and we had great access across senior levels of the 
Army as well as at Futures Command in its nascent form looking 
at--in fact, talking to the CFT pilots and understanding what 
they were doing and understanding how they were transitioning 
across to Futures Command. I do think that there are important 
transitions that are happening as they are moving to programs.
    That is part of the reason that we are emphasizing the idea 
that using mature technologies is important to end this idea of 
shifting from aspirational acquisitions toward more of an agile 
approach makes some sense from our standpoint. We didn't look 
at the specifics of the plus-ups or reductions or eliminations 
funding-wise. What we are doing is going forward in response to 
requests from this committee is we are going to look at ground 
combat vehicle; we have a slate of a couple of different 
programs that we are going to look at.
    So we will look at ground combat vehicle as a portfolio, 
not just the optionally manned vehicle, but the slate. And then 
we will burrow in to look at some of these other programs as it 
is appropriate and timely for the committee to look at, because 
I think there are a couple of layers that the committee can pay 
attention to. It is sort of the organizational element as well 
as the sort of the program-specific side.
    Mr. Norcross. I think there is good news in there. The main 
priority that I am seeing and hearing from particularly with 
those who are calling us up to say, Is this a system that has 
been set up that is fundamentally fair to industry, and this is 
my question to you, Generals, why is this time different. And 
we talked about that because of the speed, the agility that you 
bring to this, bringing industry with us is critical.
    There are those who will say, Well, we will just wait this 
one out and come in under a new one, which is the worst thing 
we could do. What are we doing to bring industry with us, 
particularly given the fact that you did such a massive change 
and some people have hurt feelings for a variety of reasons?
    General Murray. And I think one of the things that is 
fundamentally different this time is--and Dr. Jette mentioned 
this--is the dialogue that is going on and has been going on 
with industry for a while. So, Dr. Jette mentioned the 
Secretary's Monday evening dinners which he is pretty religious 
about and normally the Chief or the Vice would be there.
    And there was an attempt to without--we can't communicate 
exactly what is in the budget before it is released, but there 
was an attempt, I know, by the Secretary and the Chief to 
communicate where we were going and why this was very, very 
important that the Army is going to have to pivot sometime and 
every day you wait is one day later before you make the pivot. 
And what we were talking about, we have been very clear about 
communicating what our priorities are to include specific 
programs.
    And really what we are asking industry to do, and I have 
been in constant dialogue with industry, is meet us in the 
future. So we tend to look at this in terms of near-term 
losses, but there is tremendous opportunity as we begin to 
invest in the future and that has been pretty much a consistent 
message to industry, is come along with us.
    Mr. Norcross. Dr. Jette, do you see essentially the same 
way particularly when you start going at just one measurement, 
the minimum sustained rate? Do you independent of industry 
create the number first and then later on you go to industry, 
get their feedback, and adjust? I might have confused those 
two.
    Secretary Jette. Yes, sir. Generally, what we do is we make 
our assessment and come up with a number.
    Mr. Norcross. Okay.
    Secretary Jette. And then, we go to industry because we may 
not know everything and of course, particularly when you are 
talking about things like cost-plus contracts or cost-based 
contracts, we have access to their pricing data and their labor 
rates, their material buys, those types of things.
    Mr. Norcross. Leaking that out for their stock prices alone 
can create havoc.
    Secretary Jette. Yes, sir. Well, we are very good. We make 
sure that our people are very careful about not leaking out 
anything on those things. But then they go back and they make 
their own assessments to try and determine what the right 
number should be.
    We then have discussions. I have several calls a week with 
CEOs of major corporations and just work through these types of 
things. If I think that they are missing something, if they 
think that I am missing something, I am always open to it and 
try to come to an agreement. It doesn't always occur that we 
agree, but at least we always know where our disagreement is.
    Mr. Norcross. Ms. Hartzler.
    Mrs. Hartzler. Thank you very much.
    I wanted to ask a question for one of my colleagues, of our 
subcommittee members, Representative Bacon who had to leave and 
he wanted to know how are you incorporating the ISR into your 
plans.
    General Murray. Yes, ma'am. So, ISR--intel, surveillance, 
reconnaissance--it is a critical requirement today and it is a 
critical requirement for the future. It is only going to get 
more difficult because right now, most of our ISR platforms 
would not survive on a modern lethal battlefield.
    So, one of the things that we have done here recently and 
it's really over the last about a 6-month effort is start to 
link from a systems engineering standpoint the requirements for 
not only ISR but the networks, communications, et cetera, and 
we are beginning to look here pretty--within the last couple of 
months pretty hard at various ways of attaining the ISR that we 
need from various altitudes on various platforms in various 
ways, and then getting that data where it needs to get to.
    And I am kind of talking around it. I think probably at 
another session in a different setting would probably be 
appropriate, we can lay out specifically what we are talking 
about.
    Mrs. Hartzler. Great. That would be appreciated because it 
is very, very important.
    And along that lines, Dr. Jette, what is the Army's plan to 
modernize the on-the-move network capability in the combat 
vehicles in your armored brigade combat teams?
    Secretary Jette. So I know these may be words which 
sometimes cause people stress, but we had WIN-T1 [Warfighter 
Information Network-Tactical Increment 1] which was essentially 
a capability to get wideband communications on, in a stationary 
mode. And it was oriented primarily on the--primarily because 
that is the way we were fighting in Afghanistan and Iraq; we 
needed widebands and we were in fixed locations. The upgrade to 
that, so WIN-T1 is done, fielded, over, we are not doing 
anything. And then we moved to WIN-T2 which we have finished--I 
think we are pretty much finished up with it this year the 
fielding of all aspects of it, and that gives us an ability to 
have the same type of wideband communications links while on 
the move at the brigade level. But we are not stopping there.
    So, again, I go back, when you find a good horse, ride it a 
lot. So, I have four strategic areas that have been assigned to 
my new senior PEO. One is the directed energy. One is 
hypersonics. One is space. And one is AI--and then, the other 
one is AI. In the space area, that includes communications 
architecture. So, we are working extensively to look at 
multiple options on how we can bring communications that are 
becoming available in the space realm to the battlefield and 
make it pervasively available.
    And again, sometimes, when we get into the communication 
things, I would rather talk about them in a closed forum than 
an open forum.
    Mrs. Hartzler. That sounds good. So, we have had some 
discussions about the optionally manned fighting vehicle 
already and I know we--you intend to bring that out with the 
middle acquisition authority to replace the Bradley fighting 
vehicle.
    I guess my question hasn't been asked about is how many 
vendors do you expect to compete for this contract and what 
will the Army do if only one original equipment manufacturer 
submits a proposal?
    Secretary Jette. So I did require the PEO when they drew up 
the document that it said up to and not one or two vendors. And 
I did that particularly to leave the Army room in case we ended 
up with just one reply to the solicitation, because I didn't 
want us cornered into a position where we had to take a vendor 
and that was the only vendor that made an offer.
    So, if we get no vendors that give an offer, of course, we 
will retry. If we get one, we can retry and what we will do is 
we will look at the offer and make a determination as to 
whether or not it is sufficient to go ahead with. We don't 
expect that to be the case at this point. We know from the 
questions that we have gotten back at the different industry 
PEO sessions, we think we are probably going to have three or 
four submissions.
    Mrs. Hartzler. That would be interesting to see how that 
comes out.
    So I recently visited the Aviation Classification Repair 
Activity Depot, AVCRAD, in Springfield, Missouri, and this 
depot was very interesting. It was converting the UH-60A Alpha 
models to the UH-60L Lima models. These are Black Hawk 
helicopters and which is an upgrade over the old Alpha models 
and will improve the Army National Guard capability.
    However, as you know, the Lima models are still operating 
on analog gauges and they lack digitized capability. So, I 
understand that the Army's UH-60V Victor program will upgrade 
the Lima models with an advanced digital cockpit among other 
upgrades effectively making these helicopters comparable to the 
UH-60M Mike model which is the most advanced Black Hawk 
helicopter.
    So, Dr. Jette, what is the status of the Army's UH-60V 
program and is this program still a priority for the Army 
across the Future Years Defense Program?
    Secretary Jette. Thank you. Okay. I have 841 programs and 
512 research projects. So I am not sure I am going to give you 
the exact answer you want and I will be happy to come back with 
a more detailed one. Perhaps General Murray can close.
    Mrs. Hartzler. Sure.
    Secretary Jette. But Victor is important. And particularly 
just for your feeling comfortable with respect to the National 
Guard, if you talk about aviation assets and the Vice Chief of 
Staff of the Army is in the room, you better not do anything 
that negates the capability of the National Guard with respect 
to their aviation assets.
    Mrs. Hartzler. So, I will just interject before General 
Murray. I do have an Army Guard Black Hawk unit at Whiteman in 
my district. It is my understanding that only the Victor models 
and the Mike models can be deployed, and is that--it is not 
correct?
    General Murray. I am sorry. It was on before. I turned it 
off.
    So, you mentioned Alphas, Victors, Limas, Mikes, and you 
did well keeping those straight. The Alpha model is the oldest 
model aircraft that we have in terms of the Black Hawk; it will 
be out of the National Guard I think in 2022 or 2023 and out of 
the Active Component in 2025. So we will actually divest the 
Alpha model; there is no Alpha to Victor conversion or Alpha to 
Lima.
    I am very familiar with the Lima, my son-in-law flies one. 
The Lima to Victor conversion, we were looking at options on 
that. The Secretary has said publicly and obviously since he 
has set this mark on the wall, we are fully committed to 
converting all the Limas to Victor in both the Active 
Component, the Regular Army, the National Guard, and the U.S. 
Army Reserve, and then continuing with the Mike model 
procurement.
    And so we would have a pure fleet of Mike and Victor at 
some point in the future. And you are absolutely correct, it 
turns an analog aircraft at least from the cockpit perspective 
into a digital aircraft. And we would--right now probably 
because the Victors and the Mikes are our newest model 
aircrafts, that is probably why they are deploying. I don't 
think there is a restriction on a Lima aircraft deploying 
especially in terms like MEDEVAC [medical evacuation] aircraft.
    General Pasquarette. I would just say just from the cost of 
the aircraft, Mike models are just under $20 million a copy and 
we can get a Victor which is essentially just about the same as 
a Mike for about $12 million. So, from a budget perspective, it 
is very helpful.
    Mrs. Hartzler. When I came back from that visit I became a 
fan of the Victor model. So I concur with that. And one last 
question I have, General Murray and Dr. Jette, I am concerned 
about the proliferation of advanced threats to Army rotorcraft 
platforms.
    How are you staying ahead of these threats and what actions 
are you currently taking to ensure all rotorcraft programs have 
the most advanced aircraft survivability equipment?
    General Murray. I will start off from the requirements if I 
could, ma'am. So absolutely in many cases the threat is 
proliferating as you mentioned a lot faster than we had 
anticipated, you know, 5, 10 years ago. And so there is 
constant advances in terms of threats to rotorcraft.
    From a today perspective, we are continuing to upgrade what 
we have and prioritizing units that are deploying, so where it 
is most needed is where it is going. There are several programs 
that Dr. Jette and I talked about a couple of days ago that 
would have to be done in a different session, different setting 
as we start looking into threats in the future.
    Secretary Jette. The one that most, I can discuss here most 
is our CIRCM [Common Infrared Countermeasure] which is a----
    Mrs. Hartzler. I am sorry, did you say what?
    Secretary Jette. CIRCM.
    Mrs. Hartzler. CIRCM.
    Secretary Jette. The CIRCM system is an advanced threat 
detection and defense system that the helicopters will have 
deployed on them; exactly how it works I would rather reserve 
for a separate discussion.
    But we have a solid program. When I came in there were some 
technical challenges, we put a team against it, solved them, 
and now the system is fully online to go forward. As General 
Murray has stated, the two of us have done a review of all our 
special access programs in detail and their applicability, just 
the same thing as we did with all the open programs. And there 
are a number of things there that address some of the issues 
here.
    Mrs. Hartzler. Well, great. I am very encouraged by that 
and appreciate all of your being here today and all of your 
work, and I am done with my questions. I yield back. Thank you.
    Mr. Norcross. Let me try to wrap this up. We had a 
conversation at Picatinny, EMP [electromagnetic pulse] 
hardening, as the new systems develop, you spoke cyber and 
reviewing it every step of the way. Do you see a need to create 
a little bit more strict view of the EMP hardening of assets 
new versus retro? Where do you see this going, particularly now 
with Russia and China?
    General Murray. So, once again, it all comes back to 
requirements and then I will let Dr. Jette talk about it. So 
there actually is in the joint process a requirement to look at 
survivability of nuclear effects, EMP is what you are talking 
about. I think that is what you are talking about.
    Mr. Norcross. Yes. But also the physical end of the EMP 
isn't the kinetic piece, just the parts that they----
    General Murray. Oh, yes, sir.
    Mr. Norcross. And there are some other things as you know 
that----
    General Murray. No. I understand exactly what you are 
talking about. And sometimes though--and we have this debate 
often during our requirements process, for like let's say a 
rifle. Does a rifle really need to be EMP hardened?
    Maybe, maybe not. So we have those types of debates. But 
when you are talking about architectures that depend heavily 
upon electronics, yes, it is part of the--before it ever 
becomes a formal requirement, and we have those discussions 
about how much it requires and how to spec.
    Mr. Norcross. And----
    General Murray. Yes, sir.
    Mr. Norcross [continuing]. I want to thank you. There are a 
couple of things I want to follow up on. It was actually a lot 
easier than I expected. You guys are still cranking this up, as 
long as we have these risks to our country, we will be happy to 
continue on like this.
    With that, unless there is anything, we are adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]

=======================================================================

                            A P P E N D I X

                              May 1, 2019


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 1, 2019

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 1, 2019

=======================================================================



            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    General Murray. The Army will meet the Congressional reporting 
timeline for FY16 NDAA Section 1647. The service is on track to have 
all reports complete and provided to the Secretary of Defense by 31 
December 2019 in accordance with FY16 NDAA Section 1647 guidance.   
[See page 21.]
    General Murray. The Army follows the Cyber Survivability 
Endorsement Implementation Guide developed by the Joint Staff J6. The 
Guide describes ten cyber security attributes (CSAs) that must be 
considered during a system's development phase, and provides criteria 
to identify Cyber Survivability Risk Category (CSRC). Requirements to 
mitigate this risk are ``Baked in'' to our requirements documents. The 
Army established metrics to quantify and qualify resiliency for both 
individual systems and the network as a whole. Specific metrics for new 
systems are developed based upon the specific capability being 
delivered. For example, metrics to assess resiliency of the integrated 
tactical network will include:
    --Ability of the network to maintain connectivity during an 
electronic warfare attack. This includes: the percent of the network 
that remains connected during an electronic warfare attack, the number 
of disconnected fragments the network may break into, any critical 
nodes disconnected from the main network fragment, and, for how long; 
and to what degree can mitigation techniques improve performance.
    --Ability of the network to maintain information services/message 
dissemination services to host applications during the presence of a 
threat. This includes maintaining adequate message completion rates and 
message delivery times, both for individual messages and for mission 
threads. The Army tailors metrics to assess cyber resiliency of a 
system, across the Prevent, Mitigate, Recover (PMR) analysis process.
      <bullet>  Prevent: controls system access, reduces the system 
cyber detectability, secures transmissions and communications, protects 
the system information from exploitation, partitions and ensures 
critical function performance levels, and hardens attack surfaces.
      <bullet>  Mitigate: baselines and monitors system to detect 
anomalies and manage system performance if degraded by cyber events.
      <bullet>  Recovery: measures the system's ability to recover from 
cyber-attack.
[See page 21.]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 1, 2019

=======================================================================



                  QUESTIONS SUBMITTED BY MR. NORCROSS

    Mr. Norcross. The GAO reports that the Army has come to rely on the 
use of Overseas Contingency Operations (OCO) funding to pay for 
upgrades to its weapon systems and platforms. However, such funds are 
not typically included in the 5-year spending plans that accompany the 
congressional budget submission, making it difficult to project the 
total funding requirements for efforts that span fiscal years. GAO 
recommended that the Army report to Congress plans, if any, to continue 
this practice.
    How much of the Army's OCO submission for fiscal year 2020 is being 
used to support modernization goals?
    What are the Army's cost projections in its 5-year spending plans 
for modernization efforts being funded through OCO?
    What systems are particularly dependent on OCO appropriations in 
fiscal year 2020?
    Secretary Jette and General Murray. None. The Army uses Overseas 
Contingency Operations (OCO) funding to meet immediate or near term 
theater requirements and base dollars for its six Modernization 
Priorities for future multi-domain operations battlefields in Fiscal 
Year 2028 (FY28) and beyond. In FY20, the Army requested $3.7 billion 
in OCO to fill Joint Urgent Operational Needs Statements (JUONS) and 
Operational Needs Statements; replace munitions expended in combat; 
build-up Army Prepositioned Stocks (APS) in Europe; and other theater 
based requirements through the European Deterrence Initiative (EDI). 
The Army does not develop externally releasable five-year estimates on 
OCO. In FY20, the systems particularly dependent on OCO appropriations 
include: Multiple Launch Rocket System Modifications (EDI APS 2)--$348 
million (M); Guided Multiple Launch Rocket System (GMLRS)Rockets 
(combat replenishment)--$281.6M; Hellfire missiles (combat 
replenishment)--$236.3M; Armored Multi-Purpose Vehicles (EDI APS 2)--
$221.65M; Mobile Short Range Air Defense System (EDI)--$158.3M; GMLRS 
Rockets (EDI)--$150M; Army Tactical Missile System Block IA (EDI)--
$130.7M, and the Common Missile Warning System(JUONS)--$207.6M.
    Mr. Norcross. GAO's work has shown that demonstrating that 
technologies work as intended in an operational environment, or 
Technology Readiness Level 7, as opposed to a laboratory environment or 
a strictly controlled test site, is a best practice. Some DOD 
leadership has stated that maturing technologies to this level may be 
required to overcome the ``valley of death'' that prevents good ideas 
from becoming reality in the hands of the warfighter.
    Will Army Futures Command pursue a goal of TRL 7 for its 
technologies or settle for a lesser level of maturity? If not then, 
please explain why.
    General Murray. AFC agrees with GAO and will do everything in its 
power to get capabilities in the hands of Soldiers as quickly as we 
can. Technologies differ, so it is difficult to give a one size fits 
all answer. We are committed to working with the Army Acquisition 
Executive (AAE) to bridge the ``valley of death'' between the science & 
technology and acquisition communities. Of note, we believe more 
effective use of prototypes will significantly assist us in this 
effort. We will examine both the Technology Readiness and the 
manufacturing levels of relevant efforts. Each will be assessed 
individually to determine how to deliver optimal solutions into the 
hands of our Warfighters as quickly as possible.
    Mr. Norcross. The Army has emphasized the necessity to invest 
sufficient funding into its modernization priorities. In your written 
statement you mention that the Army has protected key legacy systems.
    How did the Army determine which programs to protect?
    What was the analysis that supported the selection of these 
systems?
    Who were the Army leaders and program representatives involved in 
those discussions and decisions?
    General Pasquarette. During what has become known as ``Night 
Court'' the Secretary and Chief of Staff of the Army personally 
evaluated over 500 programs to identify those programs that: 1) did not 
directly contribute to increased lethality in a high intensity conflict 
with Russia or China; 2) were designed primarily for counter-insurgency 
operations; or 3) had quantities above and beyond what is needed to 
support our most stressing war plans. Those programs were delayed, 
reduced, or divested to fund the six Army Modernization Priorities. 
Through this process, the Army leadership also determined which legacy 
systems were most relevant in a near-peer fight and required continued 
funding.
    The analysis supporting the selection of legacy systems began about 
five years ago. We had a ``wake-up call'' when Russia intervened in 
Crimea, and North Korea escalated threats of retaliation against the 
U.S. for holding military exercises on the Korean Peninsula. We took a 
hard look at our requirements and capabilities. The Army studied how it 
must fight and win in complex, contested environments against near-peer 
threats. Our analytical communities conducted rigorous threat 
assessments which identified significant capability gaps, both today 
and in the future. These modelling and simulation exercises also 
ascertained which legacy systems would be needed, in one form or 
fashion, for years to come. In 2018, the National Defense Strategy 
(NDS) shifted the Army's focus to Great Power competition and directed 
us to re-focus on high-intensity conflict to deter or defeat Russia or 
China. Against the back-drop of the NDS and informed by analyses, the 
Army leadership prioritized filling our greatest capability gaps for 
the future fight in the form of the six Army Modernization Priorities. 
We also determined which key legacy systems we must upgrade and sustain 
to win now and in the future.
    The Secretary and Chief of Staff were supported by a group of the 
Army's most senior leaders, who brought careers' worth of expertise to 
the ``Night Court'' deliberations. This included the Under Secretary of 
the Army; the Vice Chief of Staff; the Commanding Generals of Forces 
Command, Army Materiel Command and Training and Doctrine Command; the 
Assistant Secretary of the Army (ASA) for Acquisition, Logistics and 
Technology and his Military Deputy; the Deputy Chiefs of Staff for G-8, 
G-2 and G-3/5/7; and the Military Deputy to the ASA (Financial 
Management and Comptroller). Other subject matter experts provided 
additional information to assist in assessing impacts of and finalizing 
these decisions, as needed.
    Mr. Norcross. Since the retirement of the OH-58 Kiowa scout 
helicopter, the Army has used a manned-unmanned teaming combination of 
the Apache and the Shadow UAV to perform the scout reconnaissance 
mission. Please assess the effectiveness of the Apache-UAV teaming in 
this scout role.
    Has manned-unmanned teaming been demonstrated in an operational 
environment? Is this a sustainable long-term solution for this mission?
    General Pasquarette. Yes, Apache-Unmanned Aerial Vehicle (UAV) 
teaming has been demonstrated in an operational environment in support 
of operations in Iraq and Afghanistan where enemy threats to aviation 
have been relatively limited and not on the scale of threats we will 
face from a great-power competitor. As a result, Apache-UAV teaming is 
not the long-term solution for this mission. While it has enjoyed 
success in Counter-insurgency operations, it does not provide 
sufficient capability in a Multi-Domain environment against a near-peer 
threat. To address this capability in the future, the Army is 
developing the Future Attack Reconnaissance Aircraft (FARA). FARA is 
the number one priority in our Future Vertical Lift program, and it is 
central to the lethality of the Army Aviation ecosystem and its ability 
to be effective on the future multi-domain battlefield. The FARA will 
address threats across domains to ensure the ability to compete, 
penetrate, dis-integrate and exploit in the adversary's anti-access 
area-denial environments. The Army is also developing Air Launched 
Effects (ALE), which is a crucial piece of the advanced team concept to 
synergistically enhance survivability, threat identification, targeting 
and lethality for FARA, Advanced Unmanned Aircraft Systems and ground 
force commanders. The program aims to develop a family of small 
Unmanned Aircraft Systems that would team with other manned and 
unmanned platforms to penetrate denied airspace and attack integrated 
air defense systems. ALE payload and mission flexibility will provide 
Army aviation forces windows of opportunity to enable ground and air 
freedom of maneuver.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. Recent successful APS demonstration on the Stryker 
platform (TROPHY system) presents a new opportunity for the Army to 
begin full testing and fielding of an APS on that vehicle. The Army has 
contracted four brigades for Abrams, and recent APS tests on Stryker 
were successful. However, no funding was requested in the FY20 budget 
or in the FYDP for expedited non-developmental APS efforts. What is the 
funding profile the Army could use in FY20, that Congress could 
authorize in FY20, in order to complete testing and procurement on 
Stryker to meet directed requirements?
    General Pasquarette. In March 2019, the Army concluded vendor 
demonstrations of two Active Protective Systems (APS) at Redstone 
Arsenal in Huntsville, Alabama. The goal of these demonstrations was to 
determine whether to proceed with a non-developmental (NDI) hard kill 
APS for the Stryker platform. Based on the results of the 
demonstrations it was determined that there are no NDI APS solutions 
immediately suitable and rapid deployment of an NDI APS solution would 
not be feasible for Stryker. Therefore, there is no requirement for 
funding in Fiscal Year 2020 (FY20) for additional testing. Both of the 
systems have shown some promise. They will continue to be tested in a 
platform agnostic set of procedures to determine suitability for other 
future platforms such as the Armored Multipurpose Vehicle and the Next 
Generation Combat Vehicle-Optionally Manned Fighting vehicle. Funding 
for this effort was included in the FY20 President's Budget Request.
    Mrs. Hartzler. The Army has robust funding for Abrams SEPv3 
procurement in the FYDP, but without APS included on that variant. What 
is the Army's plan to insert APS into Abrams SEPv3 in time to support 
its fielding schedule?
    General Pasquarette. The Army will field its first set of Trophy 
later this year to our pre-positioned stock of Abrams SEPv2 in Europe 
as well as units designated by the Army to be equipped in Fiscal Year 
2020 (FY20). Efforts are underway now to enable Abrams SEPv3 to 
integrate the Trophy system beginning in FY22. Abrams SEPv3 will 
require additional modifications to software and hardware to facilitate 
that integration. Abrams SEPv3s currently in production are having many 
of the hardware modifications made to them at the factory to facilitate 
their ability to accept APS systems as future operational requirements 
dictate. The initial four sets of Trophy for Abrams SEPv2 were a non-
developmental solution that filled an immediate survivability gap while 
the Army determined the best approach to provide protection to its 
vehicles and crews across the entire fleet.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COOK
    Mr. Cook. After reviewing the Army budget request, I have concerns 
about the steep cuts in funding for systems required for current 
readiness like tactical wheeled vehicles. While I know that successful 
modernization will require difficult choices, I am concerned that the 
FY20 budget request assumes too much risk by embracing a lopsided bet 
on future systems at the expense of platforms needed today and for the 
foreseeable future. As we've seen before with failed modernization 
programs like Crusader, Comanche, and Future Combat Systems, fielding 
new systems is difficult. I believe a proper balance must be achieved 
or we risk decimating our current platforms before we've proven a 
modernization strategy will work.
    When considering the modernization priorities and establishing 
Cross Functional Teams, what efforts were made to ensure existing 
systems' capabilities were considered for new and innovative uses in a 
near-peer threat environment? For example, I have heard tactical 
wheeled vehicles described as bill payers from an era of counter-
insurgency operations, but I'd like to know if the Army did any 
analysis regarding their use in the current National Defense Strategy?
    Second, do you believe every modernization priority is adequately 
de-risked to assume such deep cuts in current platforms? I'm concerned 
we're cutting too deep, too quickly, and before we know if each 
modernization platform will become a reality.
    Secretary Jette. The Army did consider existing systems' 
capabilities and their potential for use in a near-peer threat 
environment. The Secretary and Chief of Staff of the Army personally 
evaluated over 500 programs to determine whether the systems could be 
utilized in support the National Defense Strategy. Those that would not 
directly contribute to lethality or were assessed as unable to 
effectively operate in a Multi-Domain environment against near-peer 
threats were considered as potential funding sources for Modernization 
Priorities.
    The Army also recognizes we cannot walk away from modernizing the 
current force. We are continuing to invest in key systems that are 
required to maintain the Army's advantage, and to deter or defeat 
current and near term threats. We will continue to modernize our 
Armored Brigade Combat Teams by incrementally upgrading systems such as 
Stryker, Abrams, Blackhawk, and Communications Security and by 
procuring systems such as the Joint Light Tactical Vehicle (JLTV) and 
the Armored Multi-purpose Vehicle. Soldiers will be operating these 
systems--and many others we have in the Army today well into the 
future.
    In regard to Tactical Wheeled Vehicles (TWVs) specifically, the 
Army will continue to require Light, Medium and Heavy TWVs in support 
of the National Defense Strategy and Multi-Domain Operations. TWVs are 
essential to move Soldiers, equipment and supplies throughout the 
battlefield. We did make modest reductions to TWV funding due to their 
relatively low fleet ages. In the future, we will continue to review 
Army requirements to ensure we have those vehicles that we need because 
we cannot afford to have more trucks than necessary. However, in Fiscal 
Year 2020 alone, the Army requested $1 billion for JLTV procurement. We 
have also started a recapitalization program to modernize the aging 
High Mobility Multipurpose Wheeled Vehicle fleet and are developing the 
Family of Medium Tactical Wheeled Vehicles A2 model to improve 
survivability and maneuverability.
    Mr. Cook. After reviewing the Army budget request, I have concerns 
about the steep cuts in funding for systems required for current 
readiness like tactical wheeled vehicles. While I know that successful 
modernization will require difficult choices, I am concerned that the 
FY20 budget request assumes too much risk by embracing a lopsided bet 
on future systems at the expense of platforms needed today and for the 
foreseeable future. As we've seen before with failed modernization 
programs like Crusader, Comanche, and Future Combat Systems, fielding 
new systems is difficult. I believe a proper balance must be achieved 
or we risk decimating our current platforms before we've proven a 
modernization strategy will work.
    When considering the modernization priorities and establishing 
Cross Functional Teams, what efforts were made to ensure existing 
systems' capabilities were considered for new and innovative uses in a 
near-peer threat environment? For example, I have heard tactical 
wheeled vehicles described as bill payers from an era of counter-
insurgency operations, but I'd like to know if the Army did any 
analysis regarding their use in the current National Defense Strategy?
    Second, do you believe every modernization priority is adequately 
de-risked to assume such deep cuts in current platforms? I'm concerned 
we're cutting too deep, too quickly, and before we know if each 
modernization platform will become a reality.
    General Murray. The Army did consider existing systems' 
capabilities and their potential for use in a near-peer threat 
environment. The Secretary and Chief of Staff of the Army personally 
evaluated over 500 programs to determine whether the systems could be 
utilized in support the National Defense Strategy. Those that would not 
directly contribute to lethality or were assessed as unable to 
effectively operate in a Multi-Domain environment against near-peer 
threats were considered as potential funding sources for Modernization 
Priorities.
    The Army also recognizes we cannot walk away from modernizing the 
current force. We are continuing to invest in key systems that are 
required to maintain the Army's advantage, and to deter or defeat 
current and near term threats. We will continue to modernize our 
Armored Brigade Combat Teams by incrementally upgrading systems such as 
Stryker, Abrams, Blackhawk, and Communications Security and by 
procuring systems such as the Joint Light Tactical Vehicle (JLTV) and 
the Armored Multi-purpose Vehicle. Soldiers will be operating these 
systems--and many others we have in the Army today well into the 
future.
    In regard to Tactical Wheeled Vehicles (TWVs) specifically, the 
Army will continue to require Light, Medium and Heavy TWVs in support 
of the National Defense Strategy and Multi-Domain Operations. TWVs are 
essential to move Soldiers, equipment and supplies throughout the 
battlefield. We did make modest reductions to TWV funding due to their 
relatively low fleet ages. In the future, we will continue to review 
Army requirements to ensure we have those vehicles that we need because 
we cannot afford to have more trucks than necessary. However, in Fiscal 
Year 2020 alone, the Army requested $1 billion for JLTV procurement. We 
have also started a recapitalization program to modernize the aging 
High Mobility Multipurpose Wheeled Vehicle fleet and are developing the 
Family of Medium Tactical Wheeled Vehicles A2 model to improve 
survivability and maneuverability.
    The 31 CFT efforts are essential to modernizing the Army to fight 
and win on future battlefields. As an Army, we are doing all we can to 
reduce risk to these efforts. As part of our analysis we conducted 
multiple Senior Leader led sessions to assess both the value of, and 
the risks of not having, various capabilities. We assess this approach 
provided the best method to identify reasonable divestitures to fund 
the Army's modernization priorities. Additionally, we are leveraging 
new and expanded acquisition authorities to include the Other 
Transaction Authority and Middle Tier Acquisition (MTA) (Section 804). 
Both enable us to streamline our contracting methodology and preserve 
competition while driving down risk through competitive prototyping 
vice a single source solution. We also conduct Army Senior Leader 
updates to provide the status of each CFT effort and Soldier 
touchpoints. These regular updates enable us to assess if we must alter 
our plan, that we do so early in the process, rather than discover 
problems late in the game which can be costly to fix.
    Mr. Cook. General Murray, you mentioned the weight of Trophy being 
an issue. We have heard that Army recently tested Trophy's lighter 
version, Trophy VPS on a Stryker. Can you provide information back on 
the testing of that system and whether it can provide a mature, ready 
to field, APS solution within the Army's weight requirements for Abrams 
and/or other systems, including the Stryker.
    General Murray. The Army remains committed to providing increased 
protection for our vehicles and their crews. To that end, the Army is 
pursuing Non-Developmental Item-Active Protection Systems (NDI-APS) for 
a limited portion of our ground combat fleet as we work towards an 
integrated Program of Record solution for all of our combat vehicles. 
The Army did conduct a limited demonstration of Trophy's lighter 
version, called the Trophy Medium Variant, to assess this potential NDI 
APS solution for Stryker. The system demonstrated the ability to 
intercept the threats tested, however, the Army determined due to 
vehicle concerns it is not suitable for Stryker. The Army intends to 
further evaluate the Trophy Medium Variant to better understand the 
system's functionality with respect to application on other platforms.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. The Improved Turbine Engine Program (ITEP) recently 
saw a contract award. Were engine power, engine power growth, fuel 
consumption, reliability, and maintenance key elements for this ITEP 
decision? Were these elements prioritized?
    Secretary Jette. Reliability and engine growth are Key System 
Attributes (KSAs) for ITEP. Engine power, specific fuel consumption, 
and maintenance were derived from the capability based Key Performance 
Parameters (KPPs) and KSAs identified in ITEP's Capability Development 
Document (CDD). The KPPs and KSAs were not prioritized in the CDD 
supporting ITEP. These technical requirements were included in the 
System Requirements Document (SRD) which was attached to the ITEP 
Engineering and Manufacturing Development (EMD) Request for Proposal 
(RFP) and thoroughly evaluated by the Army.
    Mr. Gallego. The Improved Turbine Engine Program (ITEP) recently 
saw a contract award. Were engine power, engine power growth, fuel 
consumption, reliability, and maintenance key elements for this ITEP 
decision? Were these elements prioritized?
    Mr. Ludwigson. GAO is unable to answer this question as we have not 
reviewed the extent to which the Army considered or prioritized the 
elements of engine power, engine power growth, fuel consumption, 
reliability, and maintenance as part of its Improved Turbine Engine 
Program (ITEP) award decision. In a recent GAO bid protest decision, 
Advanced Turbine Engine Company, B-417324; B-417324.2 (May 30, 2019), 
we concluded that the Army's evaluation of proposals was reasonable, 
consistent with the terms of the agency's solicitation, and in 
compliance with procurement law and regulation. However, GAO did not 
review whether the aforementioned elements were key in the award 
decision. Instead, GAO reviewed whether the Army evaluated the factors 
set forth in the solicitation prior to the submission of proposals, and 
provided to the companies as the criteria the Army would use for its 
review. GAO's decision is available on the GAO website.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. The GAO report from September 2018 [title: Actions 
Needed to Measure Progress and to Fully Identify Near-Term Costs; Tab 7 
of binder] stated that the Army has come to rely on the use of Overseas 
Contingency Operations (OCO) funding to pay for upgrades to its weapon 
systems and platforms. However, such funds are not typically included 
in the Future Years Defense Program (FYDP) that accompany the 
congressional budget submission, making it difficult to project the 
total funding requirements for efforts that span fiscal years. GAO 
recommended that the Army report to Congress plans, if any, to continue 
this practice.
    How much of the Army's OCO submission for fiscal year 2020 is being 
used to support modernization goals?
    What are the Army's cost projections in its 5-year spending plans 
for modernization efforts being funded through OCO?
    What systems are particularly dependent on OCO appropriations in 
fiscal year 2020?
    Secretary Jette. None. The Army uses Overseas Contingency 
Operations (OCO) funding to meet immediate or near term theater 
requirements and base dollars for its six Modernization Priorities for 
future multi-domain operations battlefields in Fiscal Year 2028 (FY28) 
and beyond. In FY20, the Army requested $3.7 billion in OCO to fill 
Joint Urgent Operational Needs Statements (JUONS) and Operational Needs 
Statements; replace munitions expended in combat; build-up Army 
Prepositioned Stocks (APS) in Europe; and other theater based 
requirements through the European Deterrence Initiative (EDI). The Army 
does not develop externally releasable five-year estimates on OCO. In 
FY20, the systems particularly dependent on OCO appropriations include: 
Multiple Launch Rocket System Modifications (EDI APS 2)--$348 million 
(M); Guided Multiple Launch Rocket System (GMLRS) Rockets (combat 
replenishment)--$281.6M; Hellfire missiles (combat replenishment)--
$236.3M; Armored Multi-Purpose Vehicles (EDI APS 2)--$221.65M; Mobile 
Short Range Air Defense System (EDI)--$158.3M; GMLRS Rockets (EDI)--
$150M; Army Tactical Missile System Block IA (EDI)--$130.7M, and the 
Common Missile Warning System (JUONS)--$207.6M.
    Mr. Turner. I understand one of the Network Cross Functional Team's 
(CFT) focus areas is ensuring joint interoperability. As we move 
through the development process, what specific steps are you taking to 
maintain connectivity with other branches of service in order to 
conduct Multi-Domain Operations in 2028 and beyond?
    General Murray. The Army is supporting Joint efforts to strengthen 
the networking of our forces to improve readiness in the near term 
while meeting the challenges of Multi-Domain Operations in the future. 
The emerging Mission Partner Environment (MPE) will connect Joint and 
Multinational partners for large-scale combat operations. The MPE is an 
example of these efforts and is being pursued in both Joint Warfighting 
Assessments (JWA) 2019 and 2020. Each JWA has been connected to Joint 
and Service exercises. In addition, the Network CFT will test and 
advance our capabilities to work with our Joint and Multinational 
partners in challenging and realistic scenarios in Europe and the 
Pacific. These exercises will be the largest test of our deployment 
capabilities since the end of the Cold War and will help shape our 
Joint and Multinational interoperability efforts across a range of 
warfighting functions.
    Mr. Turner. The Army recently awarded a contract for the Improved 
Turbine Engine Program (ITEP) and is deeply involved in the Future 
Vertical Lift (FVL) CAPSET 1 and 3. Will these overlapping efforts 
impede the timeline of any of the programs or can you assure the 
committee that all three programs are on track?
    General Murray. Improved Turbine Engine Program (ITEP), Future 
Vertical Lift (FVL) CAPSET 1 and 3 are currently on track. We have been 
able to leverage new and expanded acquisition authorities, such as 
Other Transaction Authority and Middle Tier Acquisition (MTA) Section 
804. These authorities will better enable us to field two aircraft 
nearly simultaneously by streamlining the contracting methodology and 
preserving competition while driving down risk through a competitive 
prototype ``fly-off'' vice a single source solution. We are committed 
to staying on schedule with disciplined requirements development based 
on known, proven technologies learned from the Joint Multi-Role 
Technology Demonstrator program.
    Mr. Turner. As AFC's 31 lines of effort across 6 priorities are 
developed and fielded, how are they being divided among all three 
components of the Army? Will it be a phased approach with Active Duty 
receiving the bulk of the programs first and then to the Guard and 
Reserve?
    General Murray. Analysis of equipping the Army's three components 
is ongoing. While we can reasonably assume there will be changes in 
both equipping and organizing the force, there is a great deal of 
analysis needed. Given the complexity of assessing multiple 
combinations of technologies, operational employment options, and 
organizational impacts--an endless number of combinations exists. We 
have started that analysis, and it continues.

                                  [all]
</pre></body></html>
